<html>
<title> - [H.A.S.C. No. 111-39]THE NEW STRATEGY FOR AFGHANISTAN AND PAKISTAN AND DEVELOPMENTS IN U.S. CENTRAL COMMAND AND SPECIAL OPERATIONS COMMAND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-39]

                    THE NEW STRATEGY FOR AFGHANISTAN 
                     AND PAKISTAN AND DEVELOPMENTS 
                      IN U.S. CENTRAL COMMAND AND 
                       SPECIAL OPERATIONS COMMAND

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 2, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
53-056                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, April 2, 2009, The New Strategy for Afghanistan and 
  Pakistan and Developments in U.S. Central Command and Special 
  Operations Command.............................................     1

Appendix:

Thursday, April 2, 2009..........................................    51
                              ----------                              

                        THURSDAY, APRIL 2, 2009
THE NEW STRATEGY FOR AFGHANISTAN AND PAKISTAN AND DEVELOPMENTS IN U.S. 
             CENTRAL COMMAND AND SPECIAL OPERATIONS COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     5
Olson, Adm. Eric, USN, Commander, U.S. Special Operations Command    13
Petraeus, Gen. David H., USA, Commander, U.S. Central Command....     8

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele.......................................    55
    Olson, Adm. Eric.............................................   106
    Petraeus, Gen. David H.......................................    59

Documents Submitted for the Record:

    Counterinsurgency Guidance by Gen. David D. McKiernan, USA, 
      Commander, International Security Assistance Force (ISAF), 
      Afghanistan................................................   113

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Giffords.................................................   120
    Mr. Heinrich.................................................   121
    Mr. Langevin.................................................   119
    Mrs. McMorris Rodgers........................................   119

THE NEW STRATEGY FOR AFGHANISTAN AND PAKISTAN AND DEVELOPMENTS IN U.S. 
             CENTRAL COMMAND AND SPECIAL OPERATIONS COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, April 2, 2009.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    Today, the House Armed Services Committee meets in open 
session to receive testimony on the new strategy for 
Afghanistan and Pakistan and developments in the United States 
Central Command and Special Operations Command.
    Our witnesses today are the honorable Michele Flournoy, 
under secretary of defense for policy; General David Petraeus, 
commander, United States Central Command; and, Admiral Eric 
Olson, commander of the United States Special Operations 
Command.
    And we certainly welcome each of you and thank you for 
being with us today. This is a very, very important hearing.
    As we begin to consider the new Afghanistan-Pakistan 
strategy, let me say, it is about time.
    Glenn Miller had a famous piece, a famous song entitled 
``At Last,'' and I think we could probably hum that along now, 
because we have not had such a one since the early part of our 
efforts in Afghanistan.
    As any student of military history can tell you, you can 
lose even with a good strategy, but there is no way to win with 
no strategy. And for the last seven years, I feel we have had 
no strategy in Afghanistan and, for a period of time, it has 
been getting worse.
    So it pleases me greatly that the administration undertook 
a serious policy review and came up with a real strategy to 
address Afghanistan and Pakistan, and we have finally realized 
that this important region can no longer be called America's 
forgotten war.
    I think that this strategy largely gets it right. The 
President, almost a week ago, got it right when he pointed out 
that the ultimate focus of our efforts is to eliminate Al Qaeda 
and remove the sanctuaries from which they are constantly 
planning attacks against us.
    That is the right goal and we should always remember that.
    I strongly supported the President's decision to add 17,000 
troops in Afghanistan and I support his most recent decision to 
add another 4,000 as trainers and mentors for the Afghan 
security forces.
    As the President has noted, we can bring our troops home 
when the Afghans themselves can carry the burden of security.
    But we won't win a counterinsurgency fight in Afghanistan 
through military means alone, and I think our witnesses will 
speak of that.
    So I am glad our strategy calls for a real increase in 
civilian assistance to that country and, even more, ask our 
allies to increase their efforts. This is not just America's 
war.
    I am also pleased that the strategy recognizes that success 
in Afghanistan will require more effective action on both sides 
of the border. Destroying Al Qaeda and their sanctuaries in 
Pakistan will require disrupting terrorist networks, advancing 
democratic government control, and promoting economic stability 
in Pakistan.
    We must also develop a mutually beneficial long-term U.S.-
Pakistan partnership and work with international partners on 
these efforts. None of this will be done quickly or easily. But 
the administration's new strategy is an important step, I 
believe, in the right direction.
    But the strategy on both sides of the border, Afghanistan 
and Pakistan, must have accountability. What we are missing at 
the moment is details on how the strategy will be achieved, how 
progress will be measured. How will we assure that the 
Pakistanis step up and become real partners? What is the 
proposed new Pakistan counterinsurgency capability fund and how 
will it propose changing existing authorities?
    How will we effect real civil-military coordination on the 
ground in Afghanistan? What are the metrics we will use to 
measure progress of our forces?
    These are details that we are looking for from the hearing 
today.
    Very shortly, this Congress, including this committee, will 
take action to authorize and appropriate funds to support our 
Afghan and Pakistani partners.
    Measures of accountability must and will be part of that 
effort. I hope our witnesses will take the opportunity here 
today to talk about what approaches may be the most productive, 
the most productive, in ensuring these partners make progress.
    We are committed to a long-term relationship, a consistent 
relationship both for Afghanistan and Pakistan.
    But the Congress and the American people are being asked to 
put up a significant amount of resources over a sustained 
period. So there must be accountability and there must be a 
measurable return on this investment.
    I now turn to my good friend, the ranking member, the 
gentleman from New York, John McHugh, for comments.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. I thank the distinguished chairman. As always, 
I deeply appreciate his remarks and particularly today, as you 
noted, absolutely on point, as usual, this is a very important 
hearing.
    Of course, the thing that makes it important, beyond the 
weighty topics that are before us, are our distinguished 
panelists, and I want to add my words of welcome to each of 
you.
    Madam Secretary, particularly to you, you are no stranger 
to this committee room, as we discussed, but I believe this is 
your first appearance in your new position, and I want to add 
our words of congratulations to you and that we look forward to 
your comments.
    Mr. Chairman, I noted to a friend yesterday that for all of 
the great challenges that we face as a nation and that come 
through this door that are under our charge, fortunately, one 
of them is not a crisis of leadership.
    We have two extraordinary examples of that fine leadership 
that has worked so hard to help bring us through some 
extraordinarily troubling times.
    And, General and Admiral, I want to personally thank you 
for the great job that you do. And a particular word of 
appreciation, I know both of you feel very strongly about this, 
as well, to the brave men and women in uniform that you lead in 
the important challenges that this nation has called upon you 
to face.
    Let me just add a couple of comments, and beginning with 
Afghanistan. Like the chairman, I welcome the President's 
strategic direction for the fight.
    In my view, he laid out a framework of the strategy that is 
intended to win in that theater. But I do worry that the plan, 
through no fault perhaps of anyone, is starting to become all 
things to all people.
    And let me state, very simply, we cannot allow a minimalist 
approach to creep into this strategy, and Congress, those of us 
on this committee, has to ensure the plan is fully funded, 
fully resourced, and ably executed.
    And as I look at the strategy, it appears very clearly it 
is based on the advice of commanders on the ground, and that is 
the right way to proceed, and it includes many longstanding 
objectives that I know many in this Congress and in this room 
today support and have advocated, and I just want to outline, 
very briefly, a few of those.
    A commitment to fully resource a new counterinsurgency 
strategy that is designed to protect the Afghan population and 
dismantle, disrupt and destroy Al Qaeda and, equally important, 
its affiliated networks.
    An expansion of the Afghan National Security Force, again, 
I believe an important step. But for all of its merits, in my 
opinion, I think we are going to have to go even beyond the 
current numbers and perhaps as much as double the previously 
authorized levels for both the Afghan Army and the police.
    And on a cautionary note, I would just add that I would 
advise against viewing the expansion of the Afghan National 
Security Force (ANSF) as simply an element of and not an 
alternative to a population-based counterinsurgency strategy.
    And the acknowledgment that victory in Afghanistan will 
require a regional approach, the President got this right, in 
my judgment, and he places a heavy emphasis on working with 
Pakistan in the troubled areas, particularly the border of 
Afghanistan.
    I believe that Islamabad must be a part of the solution in 
the region, but here, too, a word of caution. We cannot allow 
our efforts on the Pakistan front to distract from our push for 
progress in Afghanistan.
    And, finally, on Afghanistan, the 21,000 troops headed to 
southern Afghanistan is an important step in providing our 
commanders with the capacity needed to conduct clear, hold and 
build operations. In my view, this should but a first step.
    And we need to discuss the status of potential added force 
structure as we go forward in the days ahead.
    Let me now move to U.S. Central Command Area of 
Responsibility (CENTCOM AOR) and briefly comment on Iraq. The 
President's objective, again, to withdraw U.S. combat forces 
from Iraq, as I have said previously, is one that I believe we 
should all pray for, plan for, and work toward.
    One concern I have is it still remains a fragile situation 
and while we pray that nothing of this nature should happen, we 
have to work to mitigate any risk to our troops and their 
missions.
    Iraq faces significant challenges in 2009, including the 
national parliamentary election this December. I think it is 
critical we remain open to revisiting the plan if the situation 
on the ground deteriorates and violence increases, and our 
commanders, most importantly, must have the flexibility they 
need in order to ensure our hard fought gains are not put at 
risk.
    Finally, in the CENTCOM AOR, a word on Iran. We do have 
some challenges in the CENTCOM AOR. Tehran continues to pose a 
serious national security challenge. The shadow of Tehran looms 
over Iraq, Afghanistan, the Levant, the Gulf and beyond.
    The Iranian Revolutionary Guard Corps Quds Force is the 
terrorist organization that is increasingly capable and 
effective. Its support of Lebanese Hezbollah and Hamas defy 
efforts to stabilize the region.
    And while estimates vary as to how close the Iranians are 
to developing and obtaining a nuclear weapon, there should be 
unanimity that we, this Congress and this administration, 
cannot allow Tehran to obtain nuclear weapons, period.
    A nuclear Iran will only expand on its record of regional 
mischief and threaten our partners and friends. And we hear a 
lot about diplomatic engagement and economic sanctions and it 
seems to me that Tehran poses a military threat that requires 
military planning, and I would like our witnesses to comment on 
how the military might be positioning itself to deal with the 
range of challenges posed by Iran.
    Let me conclude with just a few words about United States 
Special Operations Command (SOCOM).
    Admiral, oftentimes, the activities of your force remain 
below the radar screen and beyond the public eye. SOCOM has, as 
you know so very well, played a vital and central role in our 
military's efforts since September 11, especially in the 
CENTCOM area of responsibility.
    Your forces have been deployed around the world, conducting 
missions that range from high end kinetic operations to softer 
engagements, but equally important, like building wells and 
providing medical care.
    And thanks to SOCOM's efforts and yours, Admiral, Al Qaeda 
and other violent extremist groups have been disrupted and kept 
off balance in places like Iraq, Afghanistan, Africa and 
elsewhere.
    But as you know, too, these threats are persistent and 
require continued vigilance and dedication on our part.
    We all recognize that SOCOM will remain heavily engaged in 
Iraq and Afghanistan even after conventional forces are drawn 
down. I think it will be important for us to understand how you 
see SOCOM's role in these theaters of operation and what 
concerns you may have in ensuring your forces have the 
appropriate support they need to continue to effectively 
conduct their missions.
    Again, to all of you, thank you so much for being here.
    And, Mr. Chairman, with that, I would yield back the 
balance of my time.
    The Chairman. I thank the gentleman.
    Madam Secretary, we thank you especially for your 
appearance before the whole House two days ago for the 
classified briefing. We appreciate your coming over.
    So we will recognize you at this time, Madam Secretary.

STATEMENT OF HON. MICHELE FLOURNOY, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Mr. Chairman and Mr. McHugh and other 
distinguished members, thank you very much for providing me and 
the General and the Admiral with the opportunity to testify 
before you today on the administration's policy review on 
Afghanistan and Pakistan.
    I think the best articulation of this new strategy was the 
President's speech last Friday, where he very clearly stated 
our strategic goal.
    It is a very clear one, and that is to disrupt, to 
dismantle and defeat Al Qaeda and its extremist allies in the 
region.
    And to do so, we must eliminate their safe haven in 
Pakistan and, also, work to prevent its reemergence in 
Afghanistan.
    Preventing future terrorist attacks on the American people 
and on our allies is absolutely vital, and I think there is no 
disagreement there.
    We have learned at too high a price the danger of allowing 
Al Qaeda and its extremist supporters to have safe havens and 
access to resources to plan their attacks.
    This is why we have troops in Afghanistan and it is why we 
must intensify our efforts to assist Pakistan.
    To achieve our goals, we need a smarter and more 
comprehensive strategy and, as both the Chairman and Mr. McHugh 
stated, we need to have the resources to fully implement it.
    A critical aspect of this new strategy is the recognition 
that Afghanistan and Pakistan are two countries, but that they 
comprise a single theater for our efforts and for our 
diplomacy.
    Al Qaeda and its extremist allies have moved across the 
border into Pakistan, where they plan terrorist attacks and 
support operations that undermine the stability of both 
countries and, indeed, the entire region.
    The President has appointed Special Representative 
Holbrooke to lead both bilateral efforts with these countries, 
but, also, important trilateral discussions and regional 
diplomatic efforts.
    And from the defense side, we will be working to build the 
counterterrorism and counterinsurgency capabilities of both 
countries so that they can be more effective in this fight.
    Pakistan's ability to dismantle the safe havens on its 
territory and defeat both terrorist and insurgent networks 
within its borders are absolutely critical to the security and 
stability of this nuclear arms state.
    And it is in America's long-term interest to support 
Pakistan's restored democracy by investing in its people and 
their economic wellbeing.
    We seek a strategic partnership with Pakistan that will 
encourage and enable it to shift its focus from deterring 
conventional war to actually conducting more effective 
counterinsurgency and counterterrorism operations.
    So we will be urging Congress to support forthcoming 
proposals, such as the Kerry-Lugar legislation on the Senate 
side, that would authorize civilian and economic assistance, as 
well as support for our proposals for a Pakistan 
counterinsurgency capability fund, to develop more effective 
military means to defeat terrorist and insurgent networks.
    This support, both military and economic, will require us 
to see improved Pakistani performance.
    We must also develop a long-term partnership with 
Afghanistan. Like Pakistan, Afghanistan suffers from severe 
socioeconomic crisis that exacerbates its political situation.
    These are the root causes of the insurgency that Al Qaeda 
and the Taliban have been exploiting.
    Building effective Afghan capacity to address these root 
causes, while simultaneously taking the fight to the enemy, are 
important components of our new strategy.
    The U.S., along with our Afghan partners and our 
international allies, is committed to fully resourcing an 
integrated civilian-military counterinsurgency strategy.
    This strategy has to aim to do three key things. The first 
is to reverse Taliban gains and secure the populations in the 
most troubled areas of the south and east of Afghanistan.
    Second is to really accelerate our efforts to build the 
capacity of the Afghan National Security Forces, both the army 
and the police. These are critical elements of the strategy.
    Building up the Afghan security forces should enable us, 
over time, to transition from an International Security 
Assistance Force (ISAF) international-led effort to an Afghan-
led counterinsurgency operation.
    To do so, we have got to meet the requirements on the 
ground of our commanders for additional training capacity. This 
is the rationale behind the President's decision to deploy an 
additional 4,000 U.S. troops to serve as trainers for the 
Afghan security forces.
    In addition, all of the American units who will be 
deploying in the coming months will be partnered with Afghan 
units to try to help build their capacity.
    But beyond strengthening the military side of the mission, 
we must also intensify our civilian assistance and better 
integrate that assistance with our military effort to promote 
more effective governance in Afghanistan and better development 
from the bottom up.
    Working with the U.N. and our allies, we will seek to 
improve coordination and coherence to support Afghan 
development priorities.
    Ensuring free and fair and secure elections will also be a 
critical near-term goal.
    We will also complement efforts at the national level to 
build capacity in the ministries and so forth with more bottom-
up initiatives aimed at building capacity at the district and 
local and provincial levels.
    This is really where the Afghan people have their direct 
experience of Afghan institutions and governance.
    Combating corruption will be a critical part of our effort 
to reinforce Afghan institutions at all levels of the 
government. These efforts also must address the root causes of 
the insurgency, build accountability, and give the Afghan 
people more reason to support and invest in their own 
government.
    Defeating the Taliban-led insurgency will require breaking 
its links to the narcotics industry and we have to work to 
build a more effective counternarcotics strategy.
    This means building Afghan law enforcement capacity, 
developing alternative livelihoods for farmers, and reforming 
the agricultural sector on which the vast majority of the 
population depends for sustenance.
    As we regain the initiative in Afghanistan, and we fully 
expect we will, it will not be easy, but we expect that we will 
regain the initiative, we must also support an Afghan-led 
reconciliation process that attempts to flip the foot soldiers 
to peel the insurgents away from the insurgency and reconcile 
them to Afghan society and integrate them into the state.
    If we are successful in these efforts, this should make it 
more easy to isolate and target the irreconcilable core 
elements of the Taliban and their extremist allies.
    Our men and women in uniform and our allies and our 
civilians on the ground have been toiling bravely in 
Afghanistan for a number of years. Nearly 700 of our soldiers 
and Marines have paid the ultimate price; 2,500 or more have 
been wounded.
    I think that one of the best ways we can honor their 
service and their sacrifice is to put in place an effective 
strategy going forward and to fully resource that effort so 
that we can be successful in bringing this war to a conclusion.
    And so I am here today to urge you to provide your full 
support. This strategy seeks to build a bridge to increased 
Afghan self-reliance and to increased Pakistani capability and 
capacity for effective counterterrorism and counterinsurgency.
    Ultimately, we will seek to transition responsibility in 
both of these fights to our partners, and our vital interests 
will demand no less than success.
    We will expect to come to back to you in the future once 
budget requests are sent to the Hill to ask for concrete 
assistance in several areas--support for the deployment of 
additional troops, support for accelerating the growth of the 
Afghan national security forces, support for counternarcotics 
funding, for additional Commander's Emergency Response Program 
(CERP), which is critical to the effectiveness of our 
commanders on the ground, for humanitarian assistance and the 
like.
    On the Pakistani side, we will be seeking your support for 
the security development plan, including the Pakistan 
Counterinsurgency Capabilities Fund, counternarcotics funding 
there, coalition support funds, and so on.
    So we hope that this is the beginning of a conversation in 
which we can engage together in figuring out the best way 
forward.
    I would also encourage you to engage with your allies on 
committees that deal with the civilian side of the equation, 
because our investment in our own civilian capacity and the 
ability to deploy that capacity to partner with the military on 
the ground will be absolutely critical to the success of this 
strategy and our efforts going forward.
    Finally, I want to assure you that we do not think of this 
as America's war. We think of this, of defeating Al Qaeda and 
dealing with its extremist allies, as an international 
challenge and an international responsibility.
    This is a burden that the international community must 
share. And so you will see the President in Europe this week, 
others in the administration, going to our partners in North 
Atlantic Treaty Organization (NATO), going to the European 
Union (EU), going to the region, to ask them to commit whatever 
they can commit in the way of capability, capacity and 
assistance to fully resource this effort together as an 
international community.
    This is something that we must do for the American people, 
for our allies, and for the international community.
    Thank you.
    [The prepared statement of Secretary Flournoy can be found 
in the Appendix on page 55.]
    The Chairman. Thank you very much.
    General Petraeus.

   STATEMENT OF GEN. DAVID H. PETRAEUS, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Petraeus. Mr. Chairman, Congressman McHugh, members 
of the committee, thank you for the opportunity to provide an 
update on the situation in the U.S. Central Command Area of 
Responsibility (AOR) and to discuss the way ahead in 
Afghanistan and Pakistan, together with Under Secretary 
Flournoy and the commander of the Special Operations Forces 
that are so critical to all that we do in the AOR, Admiral Eric 
Olson.
    As Under Secretary Flournoy noted in her statement and as 
President Obama explained this past Friday, the United States 
has vital national interests in Afghanistan and Pakistan.
    These countries contain the most pressing transnational 
extremist threats in the world and, in view of that, they pose 
the most urgent problem set in the Central Command Area of 
Responsibility.
    Disrupting and ultimately defeating Al Qaeda and the other 
extremist elements in Pakistan and Afghanistan and reversing 
the downward security spiral seen in key parts of these 
countries will require a sustained substantial commitment. The 
strategy described last Friday constitutes such a commitment.
    Although the additional resources will be applied in 
different ways on either side of the Durand Line, Afghanistan 
and Pakistan comprise a single theater that requires 
comprehensive, whole of governments approaches that are closely 
coordinated.
    To achieve that level of coordination, Ambassador Holbrooke 
and I will work closely with our ambassadors and our 
counterparts from other countries and the host nations.
    This morning, I will briefly discuss the military aspects 
of the new strategy, noting, however, that while additional 
military forces clearly are necessary in Afghanistan, they will 
not, by themselves, be sufficient to achieve our objectives.
    It is important that the civilian requirements for 
Afghanistan and Pakistan be fully met, as well.
    To that end, it is essential that the respective 
departments, State and United States Agency for International 
Development (USAID) foremost among them, be provided the 
resources necessary to implement this strategy.
    Achieving our objectives in Afghanistan requires a 
comprehensive counterinsurgency approach, and that is what 
General David McKiernan and ISAF are endeavoring to execute 
with the additional resources being committed.
    The additional forces will provide an increased capability 
to secure and serve the people, to pursue the extremists, to 
support the development of host nation security forces, to 
reduce the illegal narcotics industry, and to help develop the 
Afghan capabilities needed to increase the legitimacy of 
national and local Afghan governance.
    These forces will also, together with the additional NATO 
elements committed for the election security force, work with 
Afghan elements to help secure the national elections in late 
August and to help ensure that those elections are seen as 
free, fair and legitimate in the eyes of the Afghan people.
    As was the case in Iraq, the additional forces will only be 
of value if they are employed properly. It is vital that they 
be seen as good guests and partners, not as would-be conquerors 
or superiors, and as formidable warriors who also do all 
possible to avoid civilian casualties in the course of combat 
operations.
    As additional elements deploy, it will also be essential 
that our commanders and elements strive for unity of effort at 
all levels and integrate our security efforts into the broader 
plans to promote Afghan political and economic development.
    We recognize the sacrifices of the Afghan people over the 
past three decades and we will continue working with our Afghan 
partners to earn the trust of the people and with security to 
provide them with new opportunities.
    These concepts and others are captured in the 
counterinsurgency guidance recently issued by General 
McKiernan. I commend this guidance to you and have provided a 
copy for you with my opening statement.
    [The information referred to can be found in the Appendix 
on page 113.]
    The situation in Pakistan is, of course, closely linked to 
that in Afghanistan. Although there has been progress in some 
areas, as Pakistan's newly reestablished democracy has evolved, 
significant security challenges have also emerged.
    The extremists that have established sanctuaries in the 
rugged border areas not only contribute to the deterioration of 
security in eastern and southern Afghanistan, they also pose an 
ever more serious threat to Pakistan's very existence.
    It is these elements that have carried out terrorist 
attacks in India and Afghanistan and in various other countries 
outside the region, including the United Kingdom, and that have 
continued efforts to carry out attacks in our homeland.
    Suicide bombings and other attacks have, as you know, 
increased in Pakistan over the past three years, killing 
thousands of Pakistani civilians, security personnel and 
government officials, including, of course, former Prime 
Minister Benazir Bhutto, and damaging Pakistan's infrastructure 
and economy.
    To be sure, the extremists have also sustained losses and 
in response to the increased concern over extremist activity, 
the Pakistani military has stepped up operations against 
militants in parts of the tribal areas.
    However, considerable further work is required. It is in 
Pakistan that Al Qaeda senior leadership and other 
transnational extremist elements are located.
    Thus, operations there are imperative and we need to 
provide the support and assistance to the Pakistani military 
that can enable them to confront the extremists who pose a 
truly existential threat to their own country.
    Given our relationship with Pakistan and its military over 
the years, it is important that the United States be seen as a 
reliable ally.
    The Pakistani military has been fighting a tough battle 
against extremists for more than seven years. They have 
sacrificed much in this campaign and they need our continued 
support.
    The U.S. military thus will focus on two main areas. First, 
we will expand our partnership with the Pakistani military and 
help it build its counterinsurgency capabilities by providing 
training, equipment and assistance.
    We will also expand our exchange programs to build stronger 
relationships with Pakistani leaders at all levels.
    Second, we will help promote closer cooperation across the 
Afghan-Pakistan border by providing training, equipment, 
facilities and intelligence capabilities and by bringing 
together Afghan and Pakistani military officers to enable 
coordination between the forces on either side of the border.
    These efforts will support timely sharing of intelligence 
information and help to coordinate the operations of the two 
forces.
    Within the counterinsurgency construct we have laid out for 
Afghanistan and Pakistan, we will, of course, continue to 
support the targeting, disruption and pursuit of the 
leadership, bases and support networks of Al Qaeda and other 
transnational extremist groups operating in the region.
    We will also work with our partners to challenge the 
legitimacy of the terrorist methods, practices and ideologies, 
helping our partners address legitimate grievances to win over 
reconcilable elements of the population and supporting 
promotion of the broad-based economic and governmental 
development that is a necessary part of such an effort.
    As we increase our focus on and efforts in Afghanistan and 
Pakistan, we must not lose sight of other important missions in 
the CENTCOM AOR.
    There has, for example, been substantial progress in Iraq, 
but numerous challenges still confront its leaders and its 
people.
    Although Al Qaeda and other extremist elements in Iraq have 
been reduced significantly, they pose a continued threat to 
security and stability.
    Beyond that, lingering ethnic and sectarian mistrust, 
tensions between political parties, the return of displaced 
persons, large detainee releases, new budget challenges, the 
integration of the Sons of Iraq, and other issues indicate that 
the progress there is still fragile and reversible, though less 
so than when I left Iraq last fall, especially given the 
successful conduct of provincial elections in late January.
    Despite the many challenges, the progress in Iraq, 
especially the steady development of the Iraqi security forces, 
has enabled the continued transition of security 
responsibilities to Iraqi elements, further reductions of 
coalition forces, and steady withdrawal of our units from urban 
areas.
    We are, thus, on track in implementing the security 
agreement with the government of Iraq and in executing the 
strategy laid out by the President at Camp Lejeune.
    A vital element in our effort in Iraq has been 
congressional support for a variety of equipment and resource 
needs, and I want to take this opportunity to thank you for 
that.
    In particular, your support for the rapid fielding of Mine 
Resistant Ambush Protected (MRAP) vehicles and various types of 
unmanned aerial vehicles, as well as for important individual 
equipment and the Commanders Emergency Response Program (CERP), 
has been of enormous importance to our troopers.
    With respect to CERP, we have taken a number of steps to 
ensure proper expenditure and oversight of the funds allocated 
through the program, including procedural guides, instruction 
of leaders, and an audit by the Army audit agency, at my 
request, when I was the Multi-National Force--Iraq (MNFI) 
commander in 2008.
    Iran remains a major concern in the CENTCOM AOR. It 
continues to carry out destabilizing activities in the region, 
including the training, funding and arming of militant proxies 
active in Lebanon, Gaza and Iraq.
    It also continues its development of nuclear capabilities 
and missile systems that many assess are connected to the 
pursuit of nuclear weapons and delivery means.
    In response, we are working with partner states in the 
region to build their capabilities and to strengthen 
cooperative security arrangements, especially in the areas of 
shared early warning, air and missile defense, and the 
establishment of a common operational picture.
    Iran's actions and rhetoric have, in fact, prompted our 
partners in the Gulf to seek closer relationships with us than 
we have had with some of them in decades.
    We are also helping to bolster the capabilities of the 
security forces in Egypt, Lebanon, Jordan, Yemen, the Gulf 
states, and the central Asian states, to help them deal with 
threats to their security, which range from Al Qaeda and other 
extremist groups to robust militia and organized criminal 
elements.
    In addition, we are working with partner nations to counter 
piracy, combat illegal narcotics production and trafficking, 
and interdict arms smuggling, activities that threaten 
stability and the rule of law and often provide funding for 
extremists.
    Much of this work is performed through an expanding network 
of bilateral and multilateral cooperative arrangements 
established to address common challenges and pursue shared 
objectives.
    As we strengthen this network, we strive to provide our 
partners responsive security assistance, technical expertise, 
and resources for training, educating and equipping their 
forces and improving security facilities and infrastructure.
    We believe significant gains result from these activities 
and we appreciate your support for them, too.
    Finally, in all these endeavors, we seek to foster 
comprehensive approaches by ensuring that military efforts are 
fully integrated with broader diplomatic, economic and 
developmental activities.
    We are working closely with former Senator Mitchell and 
Ambassador Ross as they undertake important responsibilities as 
special envoys, in the same way that we are working with 
Ambassador Holbrooke and the United States ambassadors in our 
region.
    In conclusion, there will be nothing easy about the way 
ahead in Afghanistan or Pakistan or in many of the other tasks 
in the Central Command area. Much hard work lies before us.
    But it is clear that achieving the objectives of these 
missions is vital and it is equally clear that these endeavors 
will require sustained, substantial commitment and unity of 
effort among all involved.
    There are currently over 215,000 soldiers, sailors, airmen, 
Marines and Coast Guardsmen serving in the CENTCOM area of 
responsibility.
    Together with our many civilian partners, they have been 
the central element in the progress we have made in Iraq and in 
several other areas, and they will be the key to achieving 
progress in Afghanistan and Pakistan and in other locations 
where serious work is being done.
    These wonderful Americans and their fellow troopers around 
the world constitute the most capable military in the history 
of our nation. They have soldiered magnificently against tough 
enemies during challenging operations in punishing terrain and 
extreme weather, and they and their families have made great 
sacrifices since 9/11, as you know.
    Nothing means more to these great Americans than the sense 
that those back home appreciate their service and sacrifice.
    And so this morning, I want to conclude by thanking the 
American people for their extraordinary support of our military 
men and women and their families, and by thanking the members 
of this committee for your unflagging support and abiding 
concern for our troopers and their families, as well.
    Thank you very much.
    [The prepared statement of General Petraeus can be found in 
the Appendix on page 59.]
    The Chairman. General, thank you, sir.
    Admiral Olson.
    Admiral, I might, before I introduce you, announce to the 
members that we will have a total of five successive votes, two 
of which, as I understand, are 15-minute votes.
    So we ask, ladies and gentlemen, for your patience and we 
shall return, to paraphrase General MacArthur.
    Admiral Olson.

  STATEMENT OF ADM. ERIC OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Good morning. Chairman Skelton, Congressman 
McHugh, distinguished members of the committee, thank you for 
the invitation to appear before this committee to represent the 
United States Special Operations Command.
    I will focus on the roles of our headquarters and joint 
special operations forces in addressing the current and 
potential threats posed by extremists and their allies and 
networks in Afghanistan and Pakistan.
    I am pleased to join Secretary Flournoy----
    The Chairman. Excuse me. Could you get the microphone just 
a hair closer?
    Admiral Olson. I am pleased to join Secretary Flournoy and 
General Petraeus, who commands most of our deployed special 
operations forces, this morning.
    The situation in this region is increasingly dire. Al 
Qaeda's surviving leaders have proven adept at hiding, 
communicating, and inspiring. And operating in and from remote 
sites in both Afghanistan and Pakistan, Al Qaeda remains a draw 
for local and foreign fighters who subscribe to its extremist 
ideology and criminality.
    The Taliban, although not militarily strong, is pervasive 
and brutal, operating in the guise of both nationalists and 
keepers of the faith, but behaving in the manner of street 
gangs, drug lords, and mafias.
    They have forced and intimidated a mostly benign populous 
to bend to their will. Their methods run the relatively narrow 
range from malicious to evil.
    The President's strategy announced last week is one we 
fully support. We have contributed to the reviews of the past 
several months and are pleased to see that the strategy 
includes a clear focus on Al Qaeda as the enemy and that both a 
regional approach and a whole of government approach are 
directed.
    We know well that progress in Afghanistan and Pakistan will 
be neither quick nor easy. We, as a nation and an international 
community, must be prepared for an extended campaign and one 
that must go well beyond traditional military activities.
    Increasing the presence and capacity of civilian agencies 
and international organizations, to include sufficient funding 
and training, is essential.
    Also essential is robust support to the military, law 
enforcement, border security, and intelligence organizations of 
Afghanistan and Pakistan themselves, as it is ultimately they 
who must succeed in their lands.
    The United States Special Operations Command has a major 
role as a force provider and the Army, Navy, Air Force and 
Marine Corps forces it trains, equips, deploys and supports 
have key roles and missions within this campaign.
    With a long history of counterterror, counterinsurgency and 
unconventional warfare operations in many of earth's crisis and 
tension spots, the capabilities, culture, and ethos of special 
operations forces are well suited to many of the more demanding 
aspects of our mission in Afghanistan and to our increasing 
interaction with Pakistan's military and Frontier Corps forces.
    Right now, in Afghanistan, as for the last seven years, 
special operations activities range from high tech man hunting 
to providing veterinary services for tribal livestock.
    The direct action missions provide the time and space 
needed for the more indirect counterinsurgency operations to 
have their decisive effects.
    In Pakistan, we continue to work with the security forces 
at the scale and pace set by them, and we are prepared to do 
more. While we share much with them, our forces are, in turn, 
learning much about our common adversaries and the social 
complexities of the region from them.
    We stand ready to continue to work with Pakistani forces 
and to stand by them for the long term and, in this regard, it 
is important that we do not undervalue the contributions and 
sacrifices that they have already made.
    While certain units of the special operations force are 
leading high end efforts to find and capture or kill the top 
terrorist and extremist targets in Afghanistan, fundamental to 
most of the deployed special operations force is our enduring 
partnership with our Afghan counterparts.
    Under a program that began over three years ago, United 
States special forces, at the 12-man team level, have trained 
Afghan commandos in the classrooms and on the firing ranges and 
then moved with them to their assigned regions across the 
country, living remotely with them on small camps, continuing 
the training and mentoring, and integrating with them on day 
and night combat operations.
    This had great effect, and supporting their local 
development and assistance efforts has had perhaps even a more 
powerful impact.
    The Army, Navy, Air Force, and Marine Corps component 
commands of the United States Special Operations Command use 
authorities and a budget granted by legislation to organize, 
equip, train, and provide their forces to support operational 
commanders globally.
    When outside the United States, all special operations 
forces are under the operational control of the appropriate 
geographic combatant commander.
    United States Special Operations Command's budget is 
intended to fund materials, services, equipment, research, 
training and operations that are peculiar to special operations 
forces.
    It primarily enables the modification of service common 
equipment and procurement of specialized items for the conduct 
of missions that are specifically and appropriately special 
operations forces' missions to perform.
    The SOCOM budget has been robust enough to provide for 
rapid response to a broad set of crises, but we rely, 
importantly, on each of the services to provide for our long-
term sustainment in wartime environments and to develop and 
sustain the enabling capabilities, and we rely on operational 
commanders to assign these capabilities to their special 
operations task forces.
    We can serve in both supporting and supported roles at the 
operational level, and special operations effect can be the 
core elements around which key parts of the strategy are based.
    More than 10,000 members of our special operations force 
are now under the command of General Petraeus in the Central 
Command Area of Responsibility, and around 100 more are working 
in Afghanistan under NATO's ISAF command structure.
    About 2,000 others are in about 65 countries around the 
world on an average day.
    Their activities cover the broad spectrum of traditional 
military activities, well beyond the stereotypical one-
dimensional gunslinger, to encompass the three-dimensional 
warrior, adept at defense, development and diplomacy.
    Special operations brings soft power with a hard edge.
    The employment of special operations forces will actually 
not change much as a result of a revised overall strategy. Our 
units have been conducting both counterterrorism and 
counterinsurgency for several years. We will continue to 
provide our broad capabilities to our fullest capacity.
    Our strategy in Afghanistan must secure the primary urban 
areas and main routes so that life and legitimate business can 
begin and return to normalcy.
    But Afghanistan is not Iraq and most of the population is 
not urban. Security must be felt in the hinterland, provided by 
Afghan forces, supported by small teams of U.S. and NATO 
troops, and enhanced by civilian agencies in a manner that 
improves local life by local standards.
    I am encouraged by the prioritization of this approach in 
the new strategy.
    And inherent to our success and to the defeat of our 
enemies is the realization that this is a real fight, as long 
as Al Qaeda, the Taliban and associated extremists want it to 
be.
    Civilian casualties are mostly a result of their tactics, 
not ours. The operational commanders I hear from are doing all 
they can to minimize the number of noncombatant deaths, because 
they both abhor the reality of civilian casualties and they 
understand the negative strategic impacts of such deaths.
    They know that as long as our enemies force noncombatant 
women, children and others to support their operations or to 
remain on targeted facilities after warnings have been issued, 
some will die.
    They also know that the conditions, numbers and severity of 
the casualties will be highly exaggerated and quickly 
communicated.
    We must acknowledge the seriousness of this challenge and 
find ways to mitigate its effects, especially as we increase 
our troop presence in the coming months.
    And I will conclude with a simple statement of pride in a 
special operations force that I am honored to command. Created 
by a proactive Congress and nurtured by your strong support 
over the last 22 years, United States Special Operations 
Command headquarters has brought together units from all four 
services to develop and sustain a truly magnificent joint 
capability.
    Special operations forces are contributing globally, well 
beyond what its percentage of the total force would indicate, 
and, in Afghanistan and Pakistan, they are well known for their 
effectiveness.
    Thank you. I stand ready for your questions.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 106.]
    The Chairman. Thank you very much.
    In just a moment, we will adjourn for the votes.
    But, Admiral Olson, I have to make mention, you spoke of 
pride about the special operations and it was this committee, 
Congressman Dan Daniels from the state of Virginia, that was 
the father of the legislation that created what you do, and his 
memory is still a very strong one here.
    We will adjourn and return at the end of the votes.
    [Recess.]
    The Chairman. We will proceed.
    I thank the witnesses for their patience. These are 
unavoidable moments where we have to go vote, and we did, and 
people will be coming back in as soon as they leave the floor. 
But I will proceed with my questions.
    Our new strategy is reliant on success in Pakistan, no 
question about that. Our efforts with the Pakistanis thus far 
have involved a significant amount of taxpayers' dollars. We 
also have inconsistent progress in fighting the insurgency.
    We need some more specifics on how we will change the 
dynamic and achieve accountability while we maintain a long-
term partnership. And I understand and realize it may be 
walking a tightrope in the process of that, but the people of 
our country are entitled to accountability.
    As Congress begins to draft law regarding this, how would 
you recommend we think about ensuring the progress in Pakistan 
and accountability therefore?
    Ms. Flournoy.
    Secretary Flournoy. Let me start by underscoring your point 
that we have to recognize the importance of Pakistan as a 
critical partner in achieving our core goal.
    We have to work closely with them to be able to disrupt and 
dismantle and defeat Al Qaeda and their extremist allies and 
the safe haven that is in Pakistan.
    I think the President's strategy is very much designed to 
start with a commitment to Pakistan that is reassuring to them, 
that recognizes our common interests, and that gives them 
incentives to work closely with us.
    But in addition to us stepping up and making that 
commitment to Pakistan, we also do need to follow up to ensure 
that their performance is meeting our common objectives, as 
well.
    I think for this committee, the most important point is to 
provide General Petraeus, Admiral Olson, our military 
commanders on the ground with the tools that they need to work 
effectively with the Pakistani military on counterterrorism and 
counterinsurgency, to be able to set common objectives, to 
establish performance measures together, and then to work 
closely together to achieve those.
    So I think giving our commanders those authorities, those 
tools, the necessary resources is really critical to this 
effort.
    The Chairman. Thank you.
    General Petraeus.
    General Petraeus. Mr. Chairman, to follow on that, those 
tools, if you will, come in several packages. And I don't want 
to get ahead of the budget process, but since this is our 
opportunity with you, without talking numbers, what they will 
be comprised of are the familiar coalition support funds that 
you have----
    The Chairman. No, we are not talking about numbers. We are 
just talking about accountability.
    General Petraeus. What we are after, of course, is to build 
a relationship with them that can, in a sense, reassure them, 
after years, as you know, of ups and downs with the Pakistanis.
    And as I mentioned in my statement, that is something that 
will take a sustained substantial commitment on our part, in 
return for which, obviously, we can expect a sustained 
substantial commitment on their part.
    The tools that are essential to us in showing this 
commitment are the Pakistani counterinsurgency capabilities 
fund, coalition support fund, and then the other types of funds 
wrapped up in the 1206, 1207 and 1208, and I suspect that 
Admiral Olson may want to talk about a couple of those, as 
well.
    The Chairman. Admiral.
    Admiral Olson. Thank you, Mr. Chairman.
    Without being overly restrictive, because the Pakistani 
commanders will need some flexibility, as well, I think it is 
important to tie in some way the programs to specific 
equipment, training, facilities, maintenance, operations with 
the accountability processes in place so that we can be assured 
that the support is being utilized in the way that we intended 
it and at the right levels.
    General Petraeus did mention the 1208 authority, which is a 
very important authority. It is not an appropriation. It is 
just an authority for Special Operations Command to use some of 
its funds in a direct support role to counterparts and 
surrogates.
    And because it is a very specific authority, with controls 
in place, I find it very effective. I think that, in some ways, 
that could be scaled up and serve as a model for a larger 
expenditure of funds in that regard, sir.
    The Chairman. Can one of you give us a better description 
of the Pakistan Counterinsurgency Capability Fund? Who can do 
that?
    General.
    General Petraeus. Mr. Chairman, that is a request that will 
be coming forward and it is specifically designed to provide 
resources that we can use, that Central Command can use, 
through the office of the defense rep in Pakistan, to help the 
Pakistanis build the kind of capability and capacity they need 
to truly address the extremist threats in the federally 
administered tribal areas.
    That requires more than just counterterrorist operations. 
It requires a comprehensive counterinsurgency effort. And these 
funds are designed to specifically help them develop those 
capabilities.
    The Chairman. Is it replacing a fund? As I understand, this 
is in addition to the 1206, et cetera. Lots of dollars. Am I 
correct?
    General Petraeus. It is separate from those authorizations. 
It is a specific fund designed, again, to help the Pakistani 
forces develop specific capabilities, counterinsurgency 
capabilities.
    The Chairman. Was there anything comparable to this in 
Iraq?
    General Petraeus. In truth, the Multi-National Security 
Transition Command (MNSTC-I) funding, that you remember well, 
the train and equip funding, arguably, was very comparable to 
that and in substantial amounts, as you will recall.
    But we don't have a comparable organization. We do have the 
Office of the Defense Representative in Pakistan (ODRP), led by 
an admiral, with a Special Forces brigadier general as his 
deputy, and they oversee the activities, together with the 
ambassador, of the military personnel who are providing 
assistance and training to the Pakistani military forces.
    But we don't have the kind of very robust train and equip 
program that we had in Iraq or in Afghanistan.
    The Chairman. Thanks so much.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    General, yesterday, you and I had a chance to talk very 
briefly about your appearance before the Senate Armed Services 
Committee (SASC). I am particularly glad to see you all 
survived in such good form.
    You recommended I go to the transcript to get a gist of 
what you were talking about. In 17 years, I have learned that 
when a combatant commander suggests you do something, you 
should.
    And I did review that and I just want to refer to it. 
Senator Levin said, ``First, on this 10,000 troop request, is 
there a pending request that is unfilled at this point for 
those 10,000 additional troops,'' the request that General 
McKiernan had laid out.
    Your response was, ``This is a request''--excuse me--
``There is a request for forces for those elements, Senator, 
and it did move through me. My understanding is it has not been 
sent beyond the Pentagon at this time,'' to which Senator Levin 
then said, ``Has that been sent? I should look to you, then, 
Secretary Flournoy. Has that been sent by Secretary Gates? Has 
that request been made by Secretary Gates?''
    Ma'am, your response was, ``The request was laid out along 
with all of the others on a timeline and the President was told 
that the request is out there, but that he doesn't have to make 
it.''
    I am curious. Who told the President he doesn't have to 
make the decision at that time and what was the rationale for 
that?
    Secretary Flournoy. Senator--sorry. Sir----
    Mr. McHugh. Let's not get insulting now. [Laughter.]
    Secretary Flournoy. What we did is we looked at the full 
range of requests that General McKiernan had put on the table 
and the two outstanding requests are for forces that would not 
arrive until 2010, one in the first part and the other in like 
October of 2010.
    And what was clear is when the President asked, ``Well, 
when do these decisions need to be made, to be able to alert 
units, give them the deployment orders, send them,'' he was 
told, ``Sir, you don't have to make those decisions until the 
fall.''
    And so what he focused on was all of the decisions that the 
commander had put on the table to respond in the current 
timeframe and he said, ``Given that we are changing strategy, 
we are substantially changing the resourcing of the mission, 
conditions on the ground will change between now and the fall, 
I am committing to a process of reevaluation, of establishing 
metrics and benchmarks, and of continuing to look at what is 
working, what is not, and adjusting.''
    And we fully anticipate that the General's request may even 
change or evolve over time, in 6 months' time. So the 
commitment was we will look at those decisions when we need to 
make them to actually affect the force flows.
    Mr. McHugh. Again, if I may, who made that request to the 
President? Was that Secretary Gates' recommendation?
    Secretary Flournoy. Sir, this was in an interagency 
discussion, where several--the consensus recommendation to the 
President was to look at those decisions at that time.
    Mr. McHugh. Let me ask again. Was that Secretary Gates' 
recommendation?
    Secretary Flournoy. I believe that, yes, he said, 
basically--he and the chairman both explained that these 
requests are out there, but they do not need to be--that his 
decisions do not need to be made at this time, they can be made 
later and still meet the commanders' needs on the ground.
    Mr. McHugh. So Secretary Gates recommended the President 
need not make that decision.
    Secretary Flournoy. Sir, you are putting words in his month 
and----
    Mr. McHugh. No, I am not, ma'am. With all due respect----
    Secretary Flournoy. That is not the way the discussion 
went. The discussion was he was at--the President asked to 
understand the timelines involved in these decisions.
    Those timelines were presented to him and they were fully 
explored and discussed and the decision was made that those 
decisions don't need to be made at this time, and that would 
not adversely affect force flows meeting the commanders' needs.
    Mr. McHugh. I want to be very clear. I have no desire to 
put words in your mouth, and that is why we are going through 
this, because I think it is very important to have clear on the 
record how this decision was reached.
    I think you have explained that. But I think it is equally 
important to understand where each person in the process 
stands.
    We have General McKiernan's stated need. I assume General 
Petraeus passed that through, as he said he did. It is 
consistent with the counterinsurgency strategy numbers that 
certainly our very successful manual proved in Iraq.
    Let me ask the question this way. Did Secretary Gates make 
a recommendation directly the President not make this or he 
just said, ``It is up to you, Mr. President?''
    Secretary Flournoy. Sir, I am not privy to their private 
conversations, but I did not hear him make a recommendation 
either way. I heard him lay out the timeline and the options 
and the consequences.
    Mr. McHugh. Thank you.
    Here is my concern. During my opening statement, I said 
that I worry about the President's plan, that I fully support, 
that I feel he very articulately set forward, has committed us 
to a full counterinsurgency strategy.
    The concern I have is that by not supporting now the 
deployment and the assignment of troops that, admittedly, won't 
be, in all likelihood, made until 2010, is sending a message we 
may not deploy those troops. They may not be committed, 
contrary to the commanders' request on the ground.
    And therefore, this minimalist approach that takes us away 
from a counterinsurgency plan that the President has fully 
committed himself to and that I support becomes, in the mind of 
Congress, a very important player in this role, as we saw in 
2007-2006 with respect to the Iraq surge, begins to take over 
and influence executive policy.
    That is my concern and I am hard pressed to get my mind 
around the benefit of not making this full commitment pursuant 
to the commanders' request. That is my view.
    Secretary Flournoy. If I could just respond, sir.
    I don't think there is any way that you can characterize 
the additional troops that are being sent, when you add in 
enablers and the additional brigade that the President just 
approved, nearly 25,000 above what we have had, which has been 
a minimalist approach in the past, I do not think you can 
characterize that as minimalist or incremental in any way.
    I think what the President feels is important is that we 
set very clear metrics to measure our progress, that we hold 
ourselves accountable to those metrics, and that we consider 
commanders' requests at the time when those decisions need to 
be made.
    And he will consider not only--he will consider whatever 
requests that are on the table at the appropriate time to 
ensure that our forces and our civilians on the ground have the 
resources they need to execute the strategy that has been 
outlined.
    Mr. McHugh. Now, with all due respect, because someone may 
read this transcript, as I have read the Senate, I want to make 
it clear, you are now putting words in my mouth.
    I never said the President had a minimalist approach. I 
said, in 2006 and 2007, the Congress began to take a minimalist 
approach.
    Secretary Flournoy. Okay, I appreciate that. Thank you.
    Mr. McHugh. And I am worried about the lack of clarity that 
this recommendation to the President, in whatever form it came, 
and I am still not certain we understand that, feeds into the 
congressional pocket that may still have that as an objective 
that I view as a very clear formula for the President's plan, 
again, that I support and I want to see succeed, has dedicated 
itself to.
    So I would make the argument I am actually trying to 
support the President here and I am trying to point out where I 
think there may be a problem that, frankly, I think we ought to 
overcome, pursuant to the commanders' requests on the ground.
    Let's move in a similar area to the Afghan National 
Security Forces.
    We have a current timeline by the end of 2011 to expand 
that force at an accelerated level, a decision that was made 
last December, to 134,000.
    General Wardak and others in Afghanistan, and most analysts 
that I have heard believe, and I tend to agree with them, that 
we have to have a substantial expansion beyond that to truly 
allow the Afghans to take the lead. That is the objective here 
and I think it is the right path.
    Why would we not at least announce--and I understand the 
limitations of the trainer availability, that can only evolve 
in time, but why don't we say, particularly to our allies who 
are asking now to step forward and to help provide support 
troops and help provide trainers and such, that this is going 
to be a minimal target?
    Secretary Flournoy. Sir, we had extensive discussion about 
the growth of the ANSF and I think the sense around the table 
is that it will need to ultimately be larger than the current 
targets.
    In the near term, we thought the most important, realistic, 
concrete goal we could set would be to accelerate the targeted 
growth that we have already put out on the table, and that is 
to bring forward the completion date for when we reach the 
current goals.
    So we have done that, bringing that forward to 2011, and 
that is a very important target.
    That said, what we have also done is tasked Combined 
Security Transition Command--Afghanistan (CSTC-A) on the ground 
to do a detailed analysis of the needs for a larger force and 
what it would take to actually grow that force, because we did 
not have that in hand during the strategy review and we felt 
that if we picked a number, we would get it exactly wrong.
    We needed the time to follow up with the analysis of what 
is possible, what are the limitations that need to be overcome, 
what do we need to make this a sustainable force over time, and 
so forth.
    So that is ongoing work that we will continue to look at 
and we are open to revising those target goals upward.
    Mr. McHugh. Well, I support that and I think it is 
important, as you have now done, to make clear to those who are 
paying attention to this, and there are many, that the 
objective is likely to grow.
    Just as a point of clarification, I do believe you said 
``we have accelerated.'' We are on the same accelerated 
timeline as CSTC-A and the secretary approved, in December of 
last year, 134,000 in the end of 2011. Is that not correct?
    Secretary Flournoy. Yes. What is different is that we have 
resourced the trainer request to actually be able to meet that 
goal.
    Mr. McHugh. Which is a very critical component of that, and 
I would agree.
    Thank you.
    General Petraeus. Congressman, if I could just----
    Mr. McHugh. Yes, General?
    General Petraeus. As late as this morning, actually, there 
was an article in the ``Early Bird,'' an interview with 
Secretary Gates, in which he indicated every inclination, in 
fact, to support an increased number for the Afghan national 
army.
    He said he just needs the detail to sort that out, and, 
obviously, of course, there are some sustainment concerns that 
I think are very realistic, as well, and have to be dealt with.
    Mr. McHugh. I fully agree and the fact that you have 
clarified that is why, in part, I came here this morning, other 
than to hear all the other testimony, and I deeply appreciate 
that.
    And I will yield back, Mr. Chairman.
    The Chairman. Madam Secretary, please restate, in 25 words 
or less, the prospect for additional forces.
    Secretary Flournoy. As part of this strategy, the President 
has committed to an ongoing process of reevaluation, to a 
process that will develop metrics and benchmarks for our 
progress, and he will consider requests for additional 
resources on both the civilian and military side in the future 
as those requests are needed or are made.
    The Chairman. Thank you.
    Let me remind the members that the witnesses have a drop-
dead time at 2 o'clock and we are under the 5-minute rule, and 
let's do our very, very best to stay within that.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Ms. Flournoy, good to see you again.
    In your testimony, you stated that the Department of 
Defense seeks a more strategic partnership with Pakistan that 
will encourage and enable it to shift its strategic focus from 
conventional war to counterinsurgency and counterterrorism so 
that they can better address the internal threat facing the 
country.
    My question would be how will the department oversee this 
strategic shift and what additional military resources are 
required?
    And I know that we talked about maybe sending an additional 
17,000 troops. And one of the problems that we have had there 
is that the insurgency has destroyed some of the equipment 
going to Afghanistan.
    Not too long ago, they destroyed heavy equipment going to 
the NATO troops.
    So are you very well prepared staff-wise to see that shift 
and the necessary personnel to carry it out?
    Secretary Flournoy. Well, sir, I think helping to reassure 
Pakistan and enable a shift in the thinking of some of its key 
leaders, many of whom I believe are already there, have made 
that shift, I think it is going to take a regional approach 
that engages the full range of Pakistan's security concerns 
with others in the region.
    I think it is going to take a whole of government approach 
that includes not only military assistance, but economic 
assistance and intensive political engagement.
    And I do think there is a military and security assistance 
component of this that involves, again, as I said, giving our 
commanders the tools in terms of authorities and resources to 
train, equip, advise, assist, work increasingly closely with 
the Pakistani military on counterinsurgency and 
counterterrorism.
    So I think it has to be part of a whole of government 
approach.
    Mr. Ortiz. Do you know or do you have any estimate of how 
long this will take to really prepare to, to get things going?
    Secretary Flournoy. I think it is going to take some time, 
but if our experience already--and maybe General Petraeus and 
Admiral Olson could speak to this.
    When we have been able to get the access to work closely 
with them, things come along at a good pace. So I would defer 
to them and their direct experience.
    Mr. Ortiz. Sure.
    General Petraeus.
    General Petraeus. Well, there has been progress, in fact, 
with great trainers, largely special forces from SOCOM, working 
really as trainers and nothing more than that, actually, but 
with the Frontier Corps, in particular, which has carried out 
operations in several of the areas of the FATA, Bajaur, 
Mohmand, among others.
    And, indeed, they have had some very tough fighting and 
they have achieved reasonably good results in those areas.
    That effort is gradually expanding. It is that effort that, 
in fact, the Pakistani Counterinsurgency Capability Fund would 
enable, in many respects, and that is the vehicle that we see 
for taking this forward.
    I will let you talk a bit about your----
    Admiral Olson. Sir, the effort that is underway now is a 
relatively small scale effort, but at the unit level, where the 
partnership has occurred, it has been with some enthusiasm on 
both sides and the Pakistani soldiers in both the military and 
the Frontier Corps have proven to be eager and capable 
students.
    So we will have to scale up at the pace that the Pakistanis 
permit it to, but I am encouraged by the progress that we have 
seen so far, sir.
    Mr. Ortiz. I know that there are other members, so my time 
is about up. I yield back the balance of my time, Mr. Chairman.
    The Chairman. Mr. Wilson, please.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And I want to thank all of our witnesses for being here 
today, Admiral Olson, General Petraeus, Secretary Flournoy.
    Admiral, General, I just greatly appreciate your leadership 
of our service members, who I believe are protecting American 
families by defeating the terrorists overseas in the global war 
on terrorism, and your leadership has just been extraordinary.
    And, in particular, General Petraeus, as a veteran myself 
of 31 years with the Army National Guard and Reserves, I 
appreciate so much your leadership, your leadership of my 
former unit, my colleagues of the 218th Brigade that served for 
a year in Afghanistan.
    I know their respect for you, led by Brigadier General Bob 
Livingston. Our state of South Carolina, it was the largest 
deployment, 1,600 troops, since World War II, and the people of 
South Carolina appreciate their service. They are very grateful 
for their service, training Afghan police and army units.
    Additionally, as a parent, I want to thank you for your 
service. I have had two sons serve in Iraq. I have had a third 
son serve in Egypt. I know my wife and I were reassured knowing 
the level of commitment of the military leaders that serve our 
country, and it made us feel good about their service.
    General, as we proceed forward, and this has been generally 
discussed, but it is about the manpower levels for the Afghan 
national army and the national police, 134,000 for the army, 
84,000 for the police.
    A concern that I have had in the past is the low level of 
pay for these people serving, the lack of proper equipment. Is 
this being addressed?
    General Petraeus. First of all, if I could just say, you 
should, indeed, be very proud of the 218th Brigade and the 
great job that they have done down range.
    Having trained years ago with them, when I was assigned at 
Fort Stewart, it was gratifying to see them get their chance to 
deploy and to do such a great job.
    With respect to the pay, there have been incremental pay 
increases. There have been efforts to, also, equalize pay so 
that one service doesn't get more than the other.
    And, again, you have a dual-edged sword here, though, and 
that is the concern over the sustainability of these forces, 
because the bulk of their resources, obviously, come from donor 
countries, the United States and other members of the 
contributing nations.
    So that has, indeed, increased. One indicator is that there 
is certainly no shortage of volunteers for the Afghan national 
security forces.
    But what we have to do is ensure that, over time, the 
retention and other actions, the reduced absent without leave 
(AWOL) rates and so forth, some of this similar to what we went 
through in Iraq, frankly, with one big difference, and that is 
that they do not have the kind of oil revenues that Iraq had.
    So we have got to do this carefully. It has and is being 
addressed and so are the equipment and training challenges.
    If I could, I think it is important to know what the 
biggest challenge is in expanding the Afghan national security 
forces, and that is leaders. And this is, again, very similar 
to what we went through in Iraq.
    I remember telling this body, for example, we can train 
battalions, that is not a problem, we can train basic recruits, 
we can even--over time, we were producing lieutenants in 
substantial numbers.
    What you can't produce overnight or with a 6-month or even 
a few-year course are those individuals who will command at the 
company, the battalion and the brigade level and serve on their 
staffs, and that just flat takes time and that is the long pole 
in this particular tent.
    Human capital is at a premium in Afghanistan. You have had 
over 30 years of war that has robbed the nation of a lot of 
that human talent over time and this is an area that we really 
have to help them to build, not just to rebuild.
    And I think it is very important, also, to observe that 
difference between Iraq and Afghanistan, that in Afghanistan, 
we are building, constructing, not typically reconstructing or 
rebuilding, as we were in Iraq.
    Thank you.
    Mr. Wilson. Thank you.
    And a final question. This has been identified, 
Afghanistan, as a test for NATO. We know that a country like 
Romania has been very courageous to provide more troops.
    Are there any other countries that we should identify as 
really stepping forward?
    General Petraeus. Well, there are a number of countries 
that actually are stepping forward and I think we need to see 
what happens at the NATO summit.
    There certainly is hope and some expectation that the full 
election security force will be filled, for example, and that 
there are others.
    There are some other nations that we are exploring and I 
just don't want to get out ahead of the process, though, in 
announcing what those might be.
    Mr. Wilson. Thank you.
    The Chairman. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our guests for being with us.
    General Petraeus, the representatives from Maersk have one 
of the two contracts to resupply our troops in Afghanistan. It 
is my understanding that they have lost about 135 contract 
drivers that have been killed just transiting Pakistan. 
American President Lines has lost about another 15 or so.
    That is resupplying the present force. We have had entire 
convoys hijacked in Pakistan. We have had entire convoys 
destroyed transiting Pakistan.
    What is your degree of confidence that, given the 
additional 25,000 people and their additional needs, we can 
continue to count on Pakistan as our major resupply route?
    I have seen the alternatives, the 8,000 miles through 
China, 50-something days if you use Turkey as your port of 
debarkation. It doesn't look like we have many good 
alternatives other than Pakistan.
    So my question is what is your degree of confidence that 12 
months from now, that the routes will be opened to resupply the 
force we have now, plus the additional 25,000 Americans?
    General Petraeus. The degree of confidence is reasonable, 
Congressman. Let me give you an example----
    Mr. Taylor. General, for a rookie like myself, reasonable 
would translate to what as a percentage?
    General Petraeus. Sir, I am not going to put numbers on 
this thing. But let me just explain, if I could, that between 
15 February and 15 March, for example, there were about 3,600, 
roughly, equivalent containers that went through the Khyber 
pass.
    About 1 percent of all of that was damaged or destroyed in 
transit, and that included a couple of these sensational 
attacks.
    The Pakistani drivers, truckers unions, transport 
companies, shipping companies and government all realize that 
this is an enormously important boost to their economy. It is 
hugely significant to them.
    I have discussed this with the army chief, General Kiyani, 
on a number of occasions. They have, in fact, recently launched 
new operations, as well.
    Now, beyond that, we do have decent alternatives for goods 
and services that are nonlethal and there are three Northern 
Distribution Network (NDN) routes that actually come ultimately 
through Uzbekistan and into Afghanistan from the north.
    In fact, we are now getting about 80 percent of our fuel, 
for example, through the north vice through the Khyber pass.
    Again, the Pakistanis are aware of this. There is 
competition for those routes. Some of these are not as easy as 
the route that goes through Khyber, although none of this is 
easy in terms of the distribution.
    But we do have those and we are even exploring more of 
those, because we do want to have as many alternatives as 
possible, and the U.S. Transportation Command has done a 
terrific job, together with our logisticians.
    We can also fly in and it is expensive, but we also do fly 
in very important items and we have, for example, flown in 
hundreds of MRAP vehicles.
    Mr. Taylor. What jumps out at me is that the route--the 
present route we are taking tends to be the more traditional 
route where there seems to be a city every 10 to 15 miles, the 
highly populated parts of Pakistan, which, in my mind's eye, 
makes it more difficult because it only takes a few people out 
of the many to make that route very hard to transit.
    On the flipside, there appears to be a southern route 
through a much less populated part of Pakistan, using a port 
other than the port of Karachi.
    And I am just wondering to what extent we are talking to 
the Pakistanis, to what extent are they willing to listen.
    General Petraeus. Sir, we are all over this, let me assure 
you. This is about job one for the U.S. Transportation Command 
commander.
    If you brought Duncan McNabb in here, you would find out 
that he is on top of this. He has personally, actually, visited 
the countries. I personally went and saw them.
    Tomorrow, there is a signing agreement in one of those 
countries, as well, in the central Asian states, for example, 
on an agreement.
    We have looked at the routes actually that go through what 
is called the Chaman gate, which goes up past Quetta in 
southern Pakistan, and there is use of that and there is 
addition to the infrastructure that supports that going on.
    That is used pretty heavily by the British forces already 
and we will make some use of that over time.
    Quetta, as you know, though, has some potential for 
disruption, as well.
    Beyond that, there is another port, indeed. That port 
doesn't yet have the infrastructure to support the kinds of 
transportation that we need, but we are looking at that one. 
And there is even a route that goes to the west that is an 
interesting route, as well, as you might know, through another 
country.
    The Chairman. Thank the gentleman.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    The new strategy for Afghanistan addresses very much the 
notion that this is--we need a regional approach and, often, 
when we talk about Afghanistan and Pakistan, I have heard many 
people say you can't really address improvements in 
Afghanistan, the security situation or anything else, without 
also addressing Pakistan, and some have used a hyphenated 
Afghanistan-Pakistan when talking about the strategy in 
Afghanistan.
    At the end of the day here, we are dealing with two 
sovereign nations, Pakistan and Afghanistan. And I was 
surprised and, frankly, a little bit shocked to see quoted in 
the newspapers this week a senior official talking about AFPAK, 
A-F-P-A-K.
    That does not seem, to me, to be a good idea for us to be 
putting forward the notion that they are somehow one newly 
created thing that suits our vision of how we might want to go 
forward in this conflict.
    And so I am offering the notion that we should not, senior 
officials should not, and the administration or in uniform, 
invent AFPAK as we go forward.
    If anybody disagrees with that, any of the three of you, 
this would be a time to speak up, if you disagree.
    Secretary Flournoy. Sir, I don't disagree. I think it is a 
classic case of unfortunate Washington shorthand.
    Mr. Kline. Thank you.
    Now, I have another question--well, actually, that wasn't a 
question so much as an opinion, but I think it is very 
important. I really do want to stress that.
    We cannot, because we think that we cannot address 
Afghanistan without considering Pakistan and we think of it in 
a regional sense, I would argue that the region might include 
more than Afghanistan and Pakistan, but we cannot denigrate 
those sovereign nations with a notion of AFPAK.
    Now, General Petraeus, we are shifting forces from Iraq to 
Afghanistan in your command and I have some concerns about 
that, because the two are not the same, and nobody knows that 
better than you, but I want to get this point.
    When you take soldiers, sailors, airmen, Marines that are 
literally in country in Iraq, they have trained and prepared to 
serve in Iraq, with a somewhat different enemy, some would say 
an extremely different enemy, and certainly different terrain.
    And if you literally move those soldiers, let's say, you 
are a Blackhawk pilot, and you move that unit literally from 
Iraq to Afghanistan, you are moving them into something that 
they really haven't trained for or prepared for.
    They haven't trained to fly in that terrain, to fight that 
enemy. And I don't know to what extent, as we are looking at 
the shifting of forces, you and your subordinate commanders are 
looking at that problem.
    Can you address that for just a minute, please?
    General Petraeus. Well, in fact, we are looking at it very 
hard, Congressman.
    First of all, it is a relatively small number of forces 
that literally go directly from a mission in Iraq to a mission 
in Afghanistan, and it is probably on the order of several 
thousand.
    And these have been tough decisions, because these are 
forces that were in Iraq for a reason. They were performing 
important tasks. And we then have to do a risk assessment and 
determine, particularly for what we call high demand-low 
density assets, where they are most needed, where is the risk 
highest if those forces are not there.
    And it tends to be elements like construction engineers, a 
lot of the elements that we are using to build up the 
infrastructure now in southern Afghanistan for the influx of 
new forces, those types, as well.
    So you have that number of those. The bulk of these, 
though, are what we call off-ramping. In other words, these are 
forces that were originally intended to go to Iraq, such as the 
Stryker Brigade that is going to Afghanistan instead.
    And the decision is made with sufficient time that they can 
shift their training and preparation focus from one of the area 
in Iraq to which they were headed to the area in Afghanistan, 
to which they will actually deploy.
    Mr. Kline. Thank you. I appreciate that.
    I just would suggest, and I know you know this, General, 
but I think it is important, that we really are bearing down on 
this issue.
    You need more than a week or two or three or four weeks, 
because you really are fighting, performing in a very, very 
different situation if you are working out of Bagram----
    General Petraeus. No question about it.
    Mr. Kline [continuing]. Than if you are working out of Al 
Anbar. So I appreciate it.
    General Petraeus. In fact, if I could, this is the kind of 
timeline and concern that drove these decisions. It is why 
actually some decisions were made even before the Afghanistan-
Pakistan strategy review was complete and those decisions were 
made as required.
    Mr. Kline. Thank you.
    I am sorry, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    I was struck when Joe Wilson was talking about his four 
sons in uniform, how life takes you down different paths. I 
have four sons in diapers, although one of them is making great 
progress.
    Mr. Wilson. You are much younger.
    Dr. Snyder. Secretary Flournoy, I wanted to ask you, you 
testified, in your other life, in January of last year, before 
our subcommittee, and your paper talked about, ``achieving 
unity of effort and interagency operations.''
    And this is what you said at that time, ``Unlike the U.S. 
military, which has doctrine and a standard approach to 
planning its operations, the U.S. government, as a whole, lacks 
established procedures for planning and conducting interagency 
operations.
    Each new administration tends to reinvent this wheel, 
either issuing new presidential guidance, which too often 
overlooks the lessons learned and best practices of its 
predecessors, or ignoring the issue entirely until it faces an 
actual crisis. This ad hoc approach has kept the United States 
from learning from its mistakes and improving its performance 
in complex contingencies over time.
    It is no wonder that U.S. personnel who have served in 
multiple operations over the last 10 to 15 years lament feeling 
a bit like Sisyphus.
    In addition, the U.S. government lacks the mechanisms 
necessary to coordinate and integrate the actions of its 
various agencies at all levels in Washington, within regions, 
and in the field.''
    That is the end of your very thoughtful comment a little 
over a year ago.
    My question is: has this new administration reinvented the 
wheel? If it has, why has it and how has it? If not, what has 
it done differently with regard to the interagency issues or 
what General Petraeus refers to as a whole of government 
approach?
    Secretary Flournoy. Sir, it is a very important question 
and I did have a legislative adviser who says, ``If they start 
quoting your words back to you, you know you are in trouble.''
    But I would actually stand by that.
    Dr. Snyder. Your words were very important words. So you go 
back and hit that person for me.
    Secretary Flournoy. What I can say is I think one of the 
themes that came out in the strategy review is the importance 
of a whole of government approach and the need to get a much 
more tightly coordinated civil-military effort in Afghanistan, 
not only within the U.S. government piece, but with our 
international partners and particularly the U.N. presence 
there, as well.
    What we have done to try to operationalize that is we have 
asked that this kind of integrated planning to start at 
multiple levels.
    At General Petraeus' level, he and----
    Dr. Snyder. Who has asked? You are the Department of 
Defense. Who asked?
    Secretary Flournoy. No, no, no. I am sorry. The principals, 
the interagency process, so the direction coming out of the 
principals meeting. And in this case, I think the President had 
specifically made some requests at the operational sort of 
campaign level for--I am sorry--the theater level for 
Ambassador Holbrooke and for General Petraeus to start working 
together at their level to try to coordinate this.
    I know the new ambassador to Afghanistan, Karl Eikenberry, 
has been tasked to work very closely with General McKiernan to 
start working a joint civil-military campaign plan together in 
country, and they have also been tasked to marry their efforts 
up with United Nations Assistance Mission in Afghanistan 
(UNAMA)'s effort, the U.N. effort, which is now being beefed 
up.
    And so we are trying to take this key insight from past 
experience and operationalize it at the theater level and at 
the country level, as well, and I expect that to be an ongoing 
work in progress, taking it down to various levels within 
Afghanistan, as well.
    Dr. Snyder. Do you think the National Security Council's 
(NSC)'s role is any different now than in the previous 
administration?
    Secretary Flournoy. Well, I think this NSC has paid very 
close--I can't speak to the last one, because I wasn't there, 
but I can tell you that this NSC is playing very close 
attention to this issue.
    We believe that this strategy cannot succeed unless, A, you 
get the necessary military and civilian resources on the ground 
and, B, we do a much better job of synchronizing and 
coordinating those efforts.
    Dr. Snyder. General Petraeus, do you have any comment?
    General Petraeus. Well, as Secretary Flournoy said, it is 
very important that the ambassador and the ISAF/U.S. Forces 
Afghanistan commander partner, if I could offer, as close as 
Ambassador Crocker and I were able to partner over time to 
develop the kind of joint campaign plan that is necessary, 
noting that, of course, he is a NATO commander and that the 
U.N. presence is a good bit more significant in Kabul, at least 
now, than it was back when we were doing this in Iraq.
    Dr. Snyder. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank the members of the panel for joining 
us today and thank you so much for your service to our nation.
    General Petraeus, we know, in looking at the situation 
there in Afghanistan, that the narcotics trade is clearly 
fueling the Taliban's operations and their influence in the 
region.
    Are U.S. forces prepared to take on the drug interdiction 
mission as a primary mission? If so, would additional resources 
be necessary? And if not, what other options might be available 
to divert or disrupt the drug flow there as it relates to the 
monetary resources that come to the Taliban from that drug 
trade?
    General Petraeus. Well, first of all, the U.S. forces and, 
indeed, NATO forces, as well, depending on which country, but 
both NATO and U.S. forces have the authorities they need--they 
got these literally in the last several months--to conduct 
operations against the illegal narcotics industry elements that 
are linked to the Taliban, to the insurgency, and that is a 
pretty strong link, in most cases. It is not a hard one to 
establish at all.
    The money from this is, indeed, one of the primary sources 
of funding for the insurgents. There are others, but this is a 
significant one. We talk about it being the oxygen in the 
movement, in many cases.
    There are some resources that we do need to get in there 
and we actually are in the process of getting those. Some of 
these are interagency resources.
    In Iraq, we created what was called the Iraq threat finance 
cell. It focused specifically and like a laser, in fact, on one 
particular node in northern Iraq from which the extremists were 
able to siphon a great deal of money through a variety of 
illicit, as well as some licit activities, as well as extortion 
and a variety of other criminal actions.
    And we have taken steps to establish a similar cell in 
Afghanistan. It is still building. These do actually--these 
really take time, because you are looking for financial 
forensics analysts and that type of expertise.
    But that is an important component to this. Otherwise, I 
think that we have, in terms of the conventional forces, 
adequate forces to do the kind of mission in the course of our 
overall effort that is necessary to go after these individuals.
    Mr. Wittman. Thank you, General.
    I understand, too, a lot of the demand in this illicit drug 
trade exists in Russia and my question would be if that is, 
indeed, the case, are there efforts to cooperate with Russia or 
to ask them to become a partner with us in interdicting that 
drug trade to Russia and trying to find ways to make sure we 
cut off the demand, as well as the supply.
    General Petraeus. There are, indeed. In fact, several 
individuals have suggested that, in fact, Russia has such 
significant interest in ensuring that extremists don't take 
over again Afghanistan and that the illegal narcotics industry 
doesn't keep pumping drugs into Russia and other neighboring 
countries.
    Iran has an enormous problem in this regard, as well. But 
given that common interest, that instead of continuing the new 
great game, as it is called in the central Asian states, there 
should be a broad partnership against extremism and against the 
illegal narcotics flow.
    Some certainly seem to embrace that idea in Russia. Others 
seem a bit more conflicted.
    We are working--we, coincidentally, just hosted here in 
Washington the central Asian and south Asian chiefs of defense 
staff. In fact, Secretary Flournoy spoke to them, as well.
    And so if we can, again, build these kinds of partnerships, 
we think it is in their interest to do this, as well, this 
would be a big advance.
    Mr. Wittman. Thank you, Mr. Chairman. I yield the balance 
of my time.
    The Chairman. The gentleman yields back.
    Mr. Smith, please.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, I want to compliment all three of you for 
your efforts in putting together this plan and implementing it. 
I think it is critical to our national security and the work 
the administration did on this, very impressive; a lot of work 
ahead, but we are headed in the right direction. I appreciate 
that a great deal and the leadership of all three of you.
    Two areas I want to ask about. One is in the tribal areas 
and our counterinsurgency efforts there. This is a very 
important area, as you know, because of the Taliban and Al 
Qaeda influence and going back and forth across the border, 
destabilizing both Pakistan and Afghanistan.
    In the overall counterinsurgency effort that worked so 
well, and both, Admiral Olson and General Petraeus, you both 
had a great deal to do with making happen in Iraq and are now 
trying to implement in Afghanistan, sort of runs into a bit of 
a problem in the tribal areas, and that is we don't have any 
people there.
    We have to find the community leaders that we want to work 
with, the tribal leaders who can begin to turn that around.
    And how do we do that if, A, we don't have as much 
intelligence, knowing who is there, who can we work with, how 
do we build those relationships, and, B, we can't actually 
physically be in there, I guess, to build those relationships?
    I am curious, when you look at that particular piece of the 
puzzle, and, obviously, we are trying to train the Pakistanis, 
but what is the plan for dealing with that challenge and trying 
to get a handle on the difficulties in the tribal areas?
    General Petraeus. Simply put, the plan is to do that 
completely through the Pakistanis, through the Pakistani 
military partners that we have, through the Pakistani civilian 
authorities, northwest frontier province and then the actual 
local elements and the tribal agencies, but not doing that 
directly ourselves.
    The key is, again, giving the Pakistani military elements, 
the Frontier Corps, in particular, additional assistance so 
that they have the capability to carry out these operations and 
then supporting, on the civilian side, a whole of government 
approach that definitely needs increased resourcing and 
emphasis so that the military operations are followed up with 
the kind of civilian support that avoids alienation of the 
population because of displaced persons not being looked after, 
schools not being rebuilt, basic services not being restored in 
the wake of what are sometimes quite hard military operations.
    Mr. Smith. And are you satisfied at this point that you 
know enough about the tribal areas, the interactions between 
the various tribes there, community leaders, that you have a 
picture of who you can work with, who the major challenges are, 
that the intel coming out gives you a clear enough picture?
    General Petraeus. I think, actually, with respect to all of 
the countries in this effort, actually, Afghanistan, as well as 
Pakistan, and especially, frankly, the tribal areas, that we 
have a great deal to learn.
    We, as you know very well from your visits and so forth in 
Iraq, over time, devoted enormous resources, particularly in 
the intelligence arena, with analysts and human terrain 
experts, if you will, and so forth, to where we really had the 
kind of nuanced understanding that we could carry out these 
local reconciliations or support local reconciliation.
    So when it comes to Afghanistan, this is hugely important, 
as well. But having not had the density of forces on the ground 
there, having had a relatively small number of individuals in 
Pakistan, again, we have some serious work to do in this area 
and I think that Admiral Blair, the DNI, commented on this the 
other day, as well.
    Mr. Smith. I am really concerned about that piece of it, 
and serve on the Intelligence Committee, as well, and focused 
on that issue. I want to make sure that we ramp up our 
capabilities there.
    The only other question is for Secretary Flournoy. And as 
you mentioned, as the general mentioned in response to that 
question, the importance of the comprehensive strategy, the 
development piece.
    I am very concerned that development, the overall 
organization of that effort has been massively messed up to 
this point. A lot of people doing a lot of stuff. It is not 
well coordinated, not working as well as it should, at least, 
in part, because, as near as I can tell, nobody is really in 
charge of that piece of it.
    Now, the President has emphasized that. What do you think 
we need to do to get the right people in charge, to get the 
right level of coordination, so the dollars we spend are well 
spent, both in Pakistan and in Afghanistan?
    Secretary Flournoy. Well, I should start by saying I am not 
a development expert. However, the thing I have observed, 
particularly, learning from past operations and especially 
Iraq, is what really, really helps is flexibility on the ground 
to be responsive to needs at the local level, to empower 
effective governance when it is starting to happen and so 
forth.
    And so I think the more we can look at flexible CERP-like 
authorities on the development side through organizations in 
USAID, like OTI, Office of Transition Initiatives and so forth, 
the better off we will be.
    The more flexibility in counterinsurgency kind of 
situations, the better.
    Now, obviously, you have to demand accountability for that, 
but the flexibility is key.
    Mr. Smith. And I know that is not your area. Just the 
people whose area it is, I think that is an area we really need 
to ramp up.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, ma'am, good to see you today.
    And like Congressman Wilson, I have had the opportunity to 
serve. I have been blessed to be able to go to Iraq twice and 
Afghanistan once. In fact, I was there with his oldest son in 
2004. We, kind of driving back on one of those main supply 
routes (MSRs), probably passed each other a few times.
    But, first, thank you, General Petraeus, for your 
leadership and for your successful implementation of the surge 
and this victory, though reversible, in Iraq that we have now, 
thank you for that.
    My first question is on this Afghan surge, if you want to 
call it that, the troop levels going up in Afghanistan.
    Have you or General McNeill or General McKiernan, at any 
point, ever asked for more troops than the 17,000, not counting 
the 4,000 trainers?
    General Petraeus. Well, let me just be very clear that what 
is flowing to Afghanistan is more than doubling what was on the 
ground. If you look at, say, December or January of this year, 
I think we were at 31,000 or 33,000.
    By the end of this fall, we should be at 68,000. And the 
only forces that have been requested during that time that have 
not been approved are those ones that are out in the 2010 
timeframe, which will be addressed when those decisions are 
required.
    That is not to say there aren't requests for forces that 
are not filled at times, and this happened in Iraq, as well, 
even during the surge. There are some specific capabilities or 
capacities that are not resident in sufficient numbers.
    By the way, intelligence analysts were among those and we 
are gradually building the capabilities. And one of the big 
Quadrennial Defense Review (QDR) topics that has been raised by 
the combatant commanders in particular is what we call 
enablers.
    It is not just the combat forces, as you know. It is all of 
the other enablers that we have, in an ad hoc way, in some 
cases, developed initially, exploitation experts, the 
additional counter-IED (Improvised Explosive Device) elements, 
biometric teams, it goes on and on, and a lot of those in the 
intelligence arena.
    And so we are always looking to build that particular 
capacity. But the specific answer, has there ever been 
something we have asked for that hasn't been approved, the 
answer is, no, not for this year and, again, there are other 
decisions that lie ahead.
    Mr. Hunter. Touching on those enablers, are you satisfied 
that the battlefield is prepped for our movement, for this many 
surge of troops, doubling them down going into August? Are you 
satisfied that the ground is ready to have them there?
    Because let's look back to February, you were in Munich and 
this was--talking about enablers, ISAF also needs more so-
called enablers to support the effort in Afghanistan, more 
intel, surveillance, reconnaissance platforms, and the 
connectivity to exploit the capabilities that they bring, more 
military, police, engineers with logistics, more lift-and-
attack helicopters, fixed-wing aircraft, additional air medical 
evacuations (MEDEVAC) assets, or increases in information, 
operations capabilities, and so on.
    Those are a lot of things to need a few months away from 
sending a whole lot of people into harm's way. And I am just 
wondering, if we didn't have elections in Afghanistan in 
August, would we be on the same timeline with the same number 
of troops that we are right now or are we rushing to react to 
what is going on in Afghanistan right now, and are we going to 
put our people unnecessarily in harm's way because we are 
reactive right now?
    General Petraeus. No. There are a number of drivers here 
and the most important one is actually the fighting season, if 
you will, although that distinction has been less this past 
winter, both because it was a milder winter in many parts of 
the country, because we think the Taliban specifically did not 
want to let up, and, frankly, because we did not let up.
    We have continued to conduct offensive operations to expand 
the security envelope, particularly in certain areas in 
Regional Command South and Regional Command East.
    With respect to your question, are we set right now, no, of 
course, we are not. I mean, we are literally moving forces 
right now. We are moving assets to establish that 
infrastructure, to build the communications pipes, the bases, 
the logistical nodes and all of the rest of that, and there is 
an enormous amount of work that is ongoing.
    We think that we have it lined up. It is synchronized, if 
you will. No logistic plan survives in the contact, but I am 
convinced that the logisticians, that the Transportation 
Command, the services and everyone very much has--they all have 
their shoulders to the wheel and are pushing this as hard as is 
possible.
    Mr. Hunter. In the interest of time, would you be on this 
same track if we didn't have elections in August?
    General Petraeus. I would want to be on the same track if 
we didn't. Again, the elections matter, as well. This is hugely 
important for the future of Afghanistan that these be seen to 
be free, fair and, in the eyes of the Afghan people, 
legitimate.
    Just as in Iraq, as you well know, when elections 
approached, you have to--you often will launch operations in 
advance of those to ensure security for them.
    It is why the NATO forces have asked--the NATO Command has 
asked for the election security force, as well. So certainly 
there is a request for forces to specifically help with 
security for that election, as well.
    Mr. Hunter. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Davis, the gentlelady from California.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, General Petraeus and Admiral Olson, for your 
strong and very capable leadership.
    And welcome, as well, Secretary Flournoy. It is good to 
have you in that role and I know you will have many continuing 
contributions.
    I know that you are aware of critics and just discussions, 
and a lot of it is very constructive, about whether we are 
engaged in an effort that speaks to our national security 
interests or is something good to do, but doesn't necessarily 
make the grade in terms of our own national security interests.
    Do you make that distinction? In what way do you--I know 
that you see that relationship and the whole of government 
approach and you probably know from many of my questions 
before, though, I support that.
    But can you help us with that distinction and where in your 
thinking one begins to perhaps hurt the other?
    For example, the footprint, the military footprint, at what 
point does that become countervailing to the democracy-building 
attempts? How do you make those distinctions in the 
relationships?
    General Petraeus. If I could just start out by saying, 
first of all, that we very firmly believe that we have vital 
national interests in Afghanistan and, indeed, in Pakistan.
    This is where the 9/11 attacks came from, as you well know, 
and were the Taliban to take over, there is every reason to 
anticipate that there would be sanctuaries reestablished there 
by transnational extremists over time.
    Now, with respect to the additional forces, it is 
imperative that we ensure that the additional forces are 
employed properly, and that is really what comes to the heart 
of your question, I think.
    And this is the counterinsurgency guidance that General 
McKiernan has recently issued and which we provided a copy of 
to you with my opening statement.
    It captures the right approach for this very complex 
environment. It highlights the importance of avoiding civilian 
casualties in the conduct of combat operations, if at all 
possible, and so forth, about being a good neighbor, securing 
and serving the people and so forth.
    It is very, very important that our soldiers are seen by 
the Afghan people, indeed, to be partners and good guests, not 
as would-be conquerors.
    And so it is of equal measures important that you have more 
forces and that they be employed properly.
    Mrs. Davis. Are there instances where you would recommend 
that dollars that are used in a military fashion would be 
better used in democracy-building, whatever you want to call 
it? I know we are talking about building and not reconstruction 
here.
    General Petraeus. Well, this is the value of the CERP 
program, frankly, because it provides the kind of flexibility 
and resources that enable us to do just that.
    You can use them for whatever particular emergency need is 
most important to reinforcing the efforts of the security 
forces.
    The fact is, though, that without security, nothing else is 
possible. We saw in Iraq, despite our best efforts at various 
times, you are working hard to build or rebuild something and 
if security is not present, over time, it comes to naught.
    But, again, the CERP program does provide that kind of 
flexibility to our battlefield commanders.
    Secretary Flournoy. Congresswoman, if I could just jump in. 
I know this is a little beyond the focus of this committee, but 
I think as we think about deploying additional civilians to 
Afghanistan and as the security situation allows for their 
integration down at the provincial and local level in terms of 
what we are doing, it is really important that they also have 
flexible CERP-like authorities to do small-scale, bottom-up, 
micro development, help mentor local institutions, local 
leaders, et cetera.
    CERP is key for the military's effectiveness on the ground. 
We don't have anything quite like that on the civilian side and 
it really needs to be developed.
    Mrs. Davis. I think we all recognize that and I am, again, 
trying to get through those distinctions.
    Many of those programs are wonderful to see and to 
encourage and to motivate certainly the Afghan people to see 
that this is really their effort, not ours not even an 
international one, in some ways, but theirs and I am just 
interested in how we shift that, and I know you have tried to 
address that.
    My other questions just have to do with the undermining of 
all of these efforts by the Directorate for Inter-Services 
Intelligence (ISI) and whether you think that is a critical 
problem.
    The Chairman. Please answer the question.
    General Petraeus. There clearly are concerns about the ISI, 
recalling, of course, that they are the organization that, with 
our money and equipment, raised and trained and equipped the 
Taliban in the first place to help get roots in the fight 
against the Soviet forces in Afghanistan.
    They have been seen as an ally of the ISI over the years at 
various times. And so it is very important that we determine 
for ourselves, frankly, where there are cases of the ISI acting 
contrary to the interests of Pakistan and the coalition effort.
    There have been some cases of that in the past. Not all are 
as unambiguous as perhaps is sometimes reported, but there have 
been some that have been unambiguous, as well.
    We have had very direct conversations with Lieutenant 
General Pasha, the new head of the ISI, and, also, with the 
military leadership and the head of the country about it, and 
they understand the concerns.
    Our intelligence community comrades have had the same 
conversations and I think now we have to see what the future is 
going to hold in that regard.
    The Chairman. Mr. Kaufman, please.
    Mr. Kaufman. Thank you, Mr. Chairman.
    And thank you all for your service.
    General Petraeus, in Iraq, the policy was--the surge was 
successful because it wasn't simply an increase in the number 
of troops on the ground, but it was how those troops were 
deployed and the fact that they were deployed, previously 
deployed, where they would do patrols outside of our secure 
base camps located outside of the villages and neighborhoods, 
to being deployed in forward operating bases inside those 
neighborhoods, inside the communities, and that really created 
a level of security and stability that allowed the political 
process to move forward.
    You are having a much smaller footprint in terms of the 
number of troops on the ground in Afghanistan, as well as the 
planned expansion, even if we look at the aggregate numbers in 
terms of the expansion of Afghan security forces.
    What are the plans in Afghanistan in terms of pushing those 
forces into the rural areas, the villages? And this is much 
tougher, given where the population is in Afghanistan, where 
the Taliban have infiltrated those villages, those communities, 
and threatened the population, intimidated the population.
    What are the plans for doing that?
    General Petraeus. Well, again, the general principle of 
providing persistent security obtains and the challenge is to 
determine what is essentially a culturally acceptable way to 
perform that task in Afghanistan, an area with much less urban 
terrain, much less in the way of neighborhoods in which we 
could, as we did in Iraq, establish combat outposts or patrol 
bases together with our Iraqi partners.
    So here, what we need to do is literally talk to the 
locals, the mullahs, the tribal elders and so forth, typically 
locating on the edge of a village.
    Again, unlike Iraq, there is not extra infrastructure, 
there are not old Saddam era palaces and military bases and so 
forth that were unoccupied initially and could be used for 
these purposes.
    So we are typically constructing small outposts or patrol 
bases on the edge of villages and, ideally, where they are 
located, as well, to interdict the routes of infiltration in 
many of the areas that come in from the rugged areas of 
Pakistan.
    Mr. Kaufman. Thank you, General.
    To any member that wants to comment on this, we are giving, 
I believe, $1.5 billion a year to the government of Pakistan to 
try to entice them to engage in counterinsurgency operations in 
the Federally Administered Tribal Areas (FATA), where they are 
a conventional military force who sees their primary difficulty 
as being India over Kashmir.
    And so it would seem to me that that is a very difficult 
turn for them to take when their natural enemies are not the 
Taliban.
    Could anybody comment on that, please?
    General Petraeus. Well, it is imperative, frankly, that all 
of the Pakistani leaders, including the elected civilian 
leaders, recognize that the existential threat to their 
country, the most important and threatening and serious 
existential threat is that posed by the internal extremists, 
even more so now at this point than India.
    And one of the many tragedies of Mumbai was that it ended 
up with an intellectual shift back to a focus on India for a 
period of time after a period in which the Pakistani military 
had, indeed, with a considerable degree of seriousness, begun 
to look at this extremist threat internal to the country, 
realizing the magnitude of it.
    Mr. Kaufman. And if I could just--I don't believe that 
there will be a shift that will occur from conventional to 
counterinsurgency operations in the FATA until the 
administration takes initiative, launches initiatives over 
Kashmir and try to somehow reconcile that issue so that the 
Pakistanis will, in fact, focus on the FATA.
    Secretary Flournoy. Sir, I think that one of the reasons we 
talked about a regional approach in the strategy is that to 
affect Pakistan's calculus, you really do have to take into 
account the full range of their security concerns.
    So we do need to see a reduction of tensions on the 
borders. We do need to--and this is something we can do. The 
U.S. needs to provide real reassurance and confidence that give 
them confidence that we are going to stick with them, that we 
are going to be an enduring partner, and they can afford to 
make the shift and not to use these groups that they have 
worked with in the past as a hedge against other threats.
    The Chairman. I thank the gentleman.
    Mr. Larsen, please.
    Mr. Larsen. Thank you, Mr. Chairman.
    A few years back, we had testimony from folks over at the 
Joint Chiefs about the Afghan National Army and, at the time, 
it was testified to us that we were going to build a 70,000-
person army and I think, at the time, it was either going to be 
10,000 per year for 7 years or 7,000 per year for 10 years, 
fairly firm number, fairly competent number.
    And, obviously, in Afghanistan, just as much as in Iraq, we 
have learned that it is tougher to put exact numbers on exactly 
how many you need, when they are going to be there, and how 
soon we can make that happen.
    But I did hear, Madam Secretary, that it is your sense--did 
I hear that it was your sense, when Mr. McHugh had asked the 
question, it is your sense that we will need to have a larger 
Afghan National Army than we currently envision at the 134,000 
number, something larger than 134,000?
    Secretary Flournoy. I think that that is the general 
consensus, that we are going to need to grow beyond current 
levels.
    Mr. Larsen. So right now, we are anticipating, by 2011 
instead of the--when I was in Afghanistan in November, they 
said by 2012, but we have managed to accelerate that by at 
least a year.
    Secretary Flournoy. I think the original target date--it 
has been a moving target, but I think it was originally 2013, 
and now we are aiming to get there by 2011.
    Mr. Larsen. And so that is about 46,000, 47,000 more than 
we have now, to get from about 87,500 to 134,000, it is about 
46,000, if my number is right, and that is over 2 years.
    I don't know if you can answer this or General Petraeus can 
answer this.
    Is the CSTC-A underneath you or is that under ISAF?
    General Petraeus. It is all under the U.S. Forces 
Afghanistan commander, CSTC-A is.
    Mr. Larsen. Right.
    General Petraeus. Which is under Central Command. So I 
would be happy to answer the question.
    Mr. Larsen. Great, great. So either one can answer it.
    Do we anticipate learning better then how to train so that 
it is not every two years, we get an additional 46,500, or do 
we think that is going to be our--is that our capacity to train 
in Afghanistan for the military?
    General Petraeus. Candidly, we are learning all the time. 
And as I mentioned, the biggest challenge that we have is not 
actually infrastructure, it is not equipment, it is not really 
even trainers over time. It is leaders who can then take these 
units and lead them in what are very challenging combat 
operations and very complex counterinsurgency operations, and 
that is the challenge.
    They have actually now a full array of different schools 
and centers. There is a West Point of Afghanistan, there is an 
officer candidate school or Sandhurst of Afghanistan, there are 
staff colleges, there are war colleges.
    All of these are building, but this is something that, 
again, is just flat going to take time. I think we are pushing 
the envelope about as hard as we can, although we are certainly 
willing to push it harder wherever we see an opportunity to do 
so.
    We, obviously, want to expand this as rapidly as is 
possible so that they can shoulder the burdens rather than our 
troopers having to continue to do so.
    Mr. Larsen. So what attrition rate are we anticipating 
within the ANA? I heard we have to train to 115 percent to get 
something in the high 80s.
    General Petraeus. Well, this is actually not the attrition 
rate. It is really the present for duty.
    Mr. Larsen. Present for duty, yes.
    General Petraeus. Again, we experienced this in Iraq, as 
well. You may recall, when we began the surge, there was 
enormous concern about the very low levels of present for duty 
in Baghdad.
    Not the least of the problem was the sheer magnitude of the 
violence there. We, eventually, in Iraq, authorized as high as 
130,000 for units to make sure that they had approaching 
100,000--or 130 percent to make sure they came close to the 
full manning after you took out leave.
    You have the constant challenge in all of these different 
cultures of the leave, where you just can't hop on the bus and 
drive home in Afghanistan and be back a week later.
    Mr. Larsen. My yellow light is on. I have got to get to the 
police question so you can answer that.
    So right now, though, our goal is 82,000 by 2011, the 
police, or 82,000 or so, and we are at 8,000. I am sorry. It is 
82,000 and we are at 80,000 for police.
    General Petraeus. That is about right.
    Mr. Larsen. Our problem is not going to be training 2,000 
more over the next two years. Our problem for the police is 
about the quality.
    General Petraeus. That is exactly right.
    Mr. Larsen. I will speak broadly about quality on the 
police force.
    What specific steps can you tell us you are taking to 
enhance the quality of the police force?
    General Petraeus. Well, the most important is the so-called 
Focused District Development program, where the Afghan National 
Civil Order Police, which are units, go in, they take over a 
district. That allows to remove all of the local police from 
that district and they go retrain, re-equip, and then are 
reinserted.
    That has worked reasonably well. We have done that in some 
very important areas that are under threat and the police have, 
again, held up reasonably well.
    But I would want to point out that we need to have measured 
expectations of police in violent counterinsurgency operations, 
because, again, as we experienced in Iraq, where they melted 
away in areas because they are so vulnerable if other security 
forces are not there to back them up.
    They are the first line of defense, but that also means 
they are the first line to be attacked by the insurgents. Their 
families are vulnerable. They live in the neighborhood, and 
there are big challenges with that.
    The Chairman. I thank the gentleman.
    Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    Distinguished members of the panel, I am a former Army 
captain, along with my wife. We were dual military for four 
years. I just want to say thank you for your leadership and 
your service to this country.
    And moving forward, I know that regardless of what you 
think of what is going on around the world, I honestly believe 
that we are in the best possible hands. So thank you for that.
    My question has to do with Afghanistan and as we move 
through this SOFA agreement in Iraq and move into Afghanistan.
    Over the years and certainly over the last couple of years, 
we have heard a lot of issues with regard to the laws of war 
and the rules of engagement. You touched on the laws of war in 
your opening statement.
    What challenges do you see moving into Afghanistan with 
regard to the rules of engagement? Specifically, also, when it 
comes to kind of cohabitating with the Afghan Army and what 
challenges do you see there?
    And specifically why I ask this question is there was a lot 
of kind of second guessing, especially over the beginning part 
of the war in Iraq, with regard to what was the clear focus.
    As somebody who taught laws of war at West Point, I would 
be especially interested personally to know what challenges you 
all think you are going to face in Afghanistan in the future.
    General Petraeus. Well, I think the biggest challenge is 
not the rules of engagement. Of course, it is applying the 
rules of engagement, particularly when it comes to the 
minimization of civilian casualties in the course of combat 
operations, and that requires real thoughtful, considered 
leadership in the blink of an eye, in a violent situation, in 
many cases, where individuals are under fire.
    And those circumstances feature in our preparation and our 
situational training exercises before forces go down range. But 
at the end of the day, it takes confident, capable leaders to 
implement those, as you well know.
    And I think I would say that that would be the biggest 
challenge that we face there.
    Admiral Olson. Sir, I think an important aspect of the 
strategy is the statement that there will be formalized 
assigned partnerships between Afghan units and U.S. units and 
the continuing coaching and mentoring that goes well beyond 
just existing on the same compound with the force, then leads 
to continuous dialogue about law of war, about what is right.
    And when you go beyond just putting an Afghan face on the 
operation, it becomes their operation. It is typically a very 
well run operation and the right kinds of things occur.
    So I think that highlighting the importance of the 
formalized partnerships is going to be very useful.
    Mr. Rooney. I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Marshall, the gentleman from Georgia.
    I might say, before you start, Mr. Marshall, hopefully, we 
can get everybody today before two o'clock, but in the event we 
can't, in consultation with Mr. McHugh, we will begin the 
questions on the bottom rows and work backward at the next 
hearing.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    First, thank you all for your service.
    Ms. Flournoy, in your statement, you make reference to 
what, in essence, is the Provincial Reconstruction Team (PRT) 
concept as a way to address the ``root causes of the insurgency 
and give people tangible reasons to support their government.''
    The first PRT I visited was in December 2003 with General 
Schoomaker, after, actually, visiting with General Petraeus 
when he was up in Mosul, and the PRT, that whole concept hasn't 
changed much. They look kind of the same.
    General Petraeus just made reference to the fact that at 
least on the military side, we have now got a West Point type 
operation, we have got staff colleges, et cetera, trying to 
train up the Afghan security forces.
    On the civilian side, though, it seems to me had we had a 
little bit more foresight, maybe we could have done the same 
thing and had a provincial development--they should not be 
called redevelopment. It should just be provincial development 
teams, and we could have a university that is cranking out 
Afghans.
    My last trip there, I had dinner with some officers who 
mentioned that they had working for them as clerks Afghan 
doctors in Kabul and the reason these doctors were working for 
us as clerks--and they said they were great clerks, by the 
way--was because they could make more money working for us as a 
clerk than they would working as an Afghan doctor.
    Surely, we could double their pay and send them out to the 
PRTs, and there are lots of examples like that. It seems to me 
that it is more effective, safer, far more efficient to put an 
Afghan face on this as quickly as possible.
    We have had five years to do that. We haven't transitioned 
at all. So in executing your strategy, it seems to me, let's 
try and head in that direction. That is just an observation.
    General Petraeus, I found, on page 16 of your testimony, a 
very nice summary of a wise shift of strategy from one that 
focused on balancing regional blocks of power and solely on 
combating terrorism to one which, as you describe it, ``will be 
characterized by a focus on common interests, inclusivity and 
capacity-building.
    This network of cooperation is both effective and 
sustainable, because it creates synergies and, as it grows, 
strengthens relationships. Each cooperative endeavor is a link 
connecting countries in the region and each adds to the 
collective strength of the network.
    Progress made in generating cooperation in a set of 
circumstances can serve as an opening for engagement on other 
issues, thereby promoting greater interdependence.
    The foundation of this network consists of a focus on 
common interests, an atmosphere of inclusivity, and efforts to 
build security capacity and infrastructure.''
    I thought it was a great summary of an appropriate shift in 
strategy.
    To each of you, what do you think the challenges are going 
to be? What are the principal obstacles to actually executing a 
strategy like that and what can we expect?
    That is a very nice vision and if it can be pulled off, it 
should be successful, because there are clearly common 
interests.
    And one of the common interests here is getting rid of 
these nut cases that are trying to defeat organized society 
throughout the region, in essence, or create an organized 
society that is wholly different from the one that these people 
would prefer.
    So what are we going to run into in trying to actually 
execute what is a very appropriate strategy? What is going to 
be the challenge here?
    General Petraeus. Well, I don't want to sound simplistic 
about it, but it is actually divergent interests. It is the 
fact that, of course, with all of these countries, we have a 
number of common interests and, ironically, what Iran is doing 
in the region is actually----
    Mr. Marshall. Bringing people together.
    General Petraeus [continuing]. Bringing people together 
more than they have been for decades.
    Certain aspects of air and missile defense are much more 
active now than they have been at any time probably since the 
Gulf War or, at the very least, 2003, and that has brought 
countries together.
    It has actually led to a strengthening of relationships 
between the Gulf states, in particular, and the United States, 
and then that allows us to help turn bilateral arrangements 
into somewhat more multilateral arrangements.
    And now if you look all the way down the Gulf states, you 
see a very, very substantial network, layers of networks, if 
you will, in the different areas of training, operations, air 
and missile space defense, shared early warning, air 
interdiction capacity, and on and on, and all of that supported 
by a growing network of training arrangements, as well.
    Mr. Marshall. So you would just describe the chief threat 
as being diverging interests.
    General Petraeus. Well, there is still--certainly, 
understandably, folks don't want to seem to be fighting our 
wars. There are occasionally different--certainly, more than 
occasionally, different perspectives on different problems.
    So I think the challenge has always, and more of a 
diplomatic one than perhaps a military one, but, of course, is 
to build on the common interests to the point that they can be 
seen as more important than the diverging interests.
    Mr. Marshall. Thank you, Mr. Chairman.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    First of all, thank all of you for your service and for 
being here.
    I understand that while I was out of the room, you were 
asked about General McKiernan, and this is for you, General 
Petraeus, McKiernan's request for 34,000 troops.
    And it may have been another person that gave this answer, 
but you didn't have to deal with the additional troops, the 
11,000 or 12,000 that he still is not going to be getting after 
the 4,000 we are sending now, but that wasn't a decision that 
had to be made until this fall.
    My question is why did he not already have the full 
complement of 34,000 troops that he said he needed in 
Afghanistan?
    General Petraeus. Well, again, it literally takes time to 
build these up. There was a series of requests that were made, 
some all the way back to last year, in fact, and, as always, 
there has to be a process of sourcing forces, determining, in 
some cases, to take more risk in another area than in, say, in 
Afghanistan, and then, through the sourcing process, the 
approval of those requests for forces and then the sourcing and 
then, of course, preparation and deployment of those forces.
    But the fact is, I think, that it was Admiral Mullen who 
has said on a number of occasions that in Afghanistan, we do 
what we can; in Iraq, we do what we must.
    What was the phrase that he--in other words, implying that 
the focus until fairly recently of resources was on Iraq and, 
clearly, the focus is now shifting, enabled, in substantial 
part, by the progress that has been made in Iraq and has 
allowed us to draw down our forces there over time, with more 
of those to be expected in accordance with the plan that was 
announced by the President at Camp Lejeune.
    Mr. Rogers. Thinking about now the greater shift of 
attention on Afghanistan, when do you expect that you will have 
for this committee the set of milestones, goals and objectives 
that you are measuring against for prospective success or 
failure in that theater?
    General Petraeus. Well, first of all, there already are a 
number of different metrics and measures. There are measures 
for the Afghan forces for security incidents, literally all the 
ones that we had in Iraq, although I think still being refined 
in the way that we did over time in Iraq, where eventually, as 
you know, we also had benchmarks and a variety of other 
measurement tools.
    And with that, I will hand off to the undersecretary, who 
can talk about that effort.
    Secretary Flournoy. I would just say in addition to the 
sort of field level metrics that are already in place, I would 
say we are in the process of developing sort of strategic level 
metrics and benchmarks on an interagency basis, looking not 
only at the military effort, but across the civilian effort, as 
well, and looking both at Afghanistan and Pakistan.
    That is something that we are working on. We hope to 
actually consult with many of you as we further develop those 
and to be able to bring those forward to you in the not too 
distant future.
    Mr. Rogers. Not too distant future. As a lawyer myself, 
that is a good lawyerly way of putting it.
    Secretary Flournoy. No. We are actually having a meeting 
early next week to set the schedule and I just can't tell you 
what it is going to be quite yet.
    Mr. Rogers. Thank you.
    That is all I have, Mr. Chairman.
    The Chairman. A matter of clarification. The troops sent to 
Afghanistan, was that number decided by the last 
administration, before the present 17,000 and 4,000 announced?
    General Petraeus. There were some that were sent by the 
previous administration in response to the series of requests 
for forces that General McKiernan has sent in, and then, 
obviously, the subsequent ones are being sent by the current 
administration.
    The Chairman. When was that request made?
    General Petraeus. Sir, there have been a series of these 
requests for forces. They date back certainly to last year, 
late last year.
    The Chairman. Did the previous administration honor all of 
the requests of the general for forces in Afghanistan?
    General Petraeus. Again, there has been a series of those.
    The Chairman. No, no, no. Answer my----
    General Petraeus. Some of those that were submitted before 
the inauguration were dealt with by the previous 
administration. Others were not dealt with by the previous 
administration, I think with a view that they wanted to allow 
the next administration to make those decisions.
    The Chairman. Thank you so much.
    Ms. Tsongas.
    General Petraeus. The one beauty, if I could add, Mr. 
Chairman, is we have had the same Secretary of Defense during 
the whole time and there has been a degree of continuity there, 
frankly, that has been very helpful to combatant commanders, 
among others.
    Ms. Tsongas. Well, thank you so much for your testimony and 
appreciate your hanging in there with us today.
    I have a question. As we have talked about a more holistic 
approach, one of the issues has been building up the civilian 
capacity.
    I am just curious what kind of numbers we are looking at.
    Secretary Flournoy. Well, I think there is an initial 
request from the embassy on the order of 400 to 500, but I 
think there is a further needs analysis that is ongoing that we 
expect to yield a requirement of several thousand.
    Obviously, not all of those can be met immediately with 
American governmental personnel, but we are going to be looking 
beyond government resources to private sector, as well, and we 
are also very much placing an emphasis on this as we go to talk 
to our allies, asking not only for military contributions, but 
contributions of civilian expertise.
    Ms. Tsongas. And so we would be looking to the 
nongovernmental organization (NGO) community that is in place 
already or not?
    Secretary Flournoy. Absolutely.
    Ms. Tsongas. And I have a question related to that. At 
present, these agencies are not associated with our military 
and, as a result, they have some freedom of movement sort of 
outside the parameters of military operations, and this 
principle was outlined in the guidelines for the interaction 
and coordination of humanitarian actors and military actors in 
Afghanistan.
    Part of these organizations' security is based on the 
general view that they are separate from military operations 
and, therefore, not a military target. However, this line is 
often blurred and, as you can imagine, some of those people in 
Afghanistan who seek to do harm really will not pay attention.
    But what concerns me is that as we implement a policy with 
strong emphasis on civilian activities, that we may further 
blur the civil-military lines and jeopardize the safety of the 
NGOs, as well as many others engaged in development activities.
    In fact, in conversations with some of those NGOs who have 
had longstanding operations in Afghanistan, there is growing 
concern about their physical safety, to the point where, in 
some instances, they are considering withdrawing from the 
country.
    How do we coordinate all of these entities towards a common 
purpose, while keeping separate our military strategy from 
efforts to reconstruct and develop Afghanistan?
    Secretary Flournoy. I am sure General Petraeus will have a 
comment on this, too, given his experience. But I think part of 
what we are trying to do is create, with the influx of military 
troops, is to create a secure environment that will enable all 
kinds of actors to be more effective on the development side, 
NGOs, Afghans, our own government people.
    I think there are some NGOs who are quite comfortable 
working with the U.S. military and there are others who, as you 
say, safeguard their--hold dear their independence and try to 
remain separate.
    I think one of the things we need to do is work very 
closely with the U.N. Most of the NGOs who do not work directly 
with the U.S. military are working in consultation with either 
other civilian entities or with the U.N.
    And so I think strengthening our coordination mechanisms 
via the U.N. is one of the most effective things we can and 
should be doing in Afghanistan, and that is certainly part of 
the plan.
    But I think so often this comes down to very specific 
situations on the ground, that you really have to have the NGO 
personnel and the local U.S. government or international 
organization or military folks kind of negotiate rules of the 
road that work on the ground in a specific area.
    Ms. Tsongas. General Petraeus.
    General Petraeus. First of all, I think we really very much 
understand the importance of NGOs and the U.N. As you may 
recall, we lost literally the vast majority of the 
nongovernmental organizations and even the United Nations 
element in Iraq for a period because of the deterioration of 
the security situation.
    So the first order of business is, again, to, as the 
Secretary said, try to expand the security environment and the 
security bubble in which the operate.
    Beyond that, there are coordination mechanisms at all of 
the different levels, but nationally and then locally, as well, 
typically, with the different groups that are out there. Some 
of them may not want to even come into a compound of ours, but 
they still may be able to communicate if they need a quick 
reaction force, for example.
    And so depending on what the communications infrastructure 
in the area is, they can either use cell phones, if necessary, 
satellite phones or what have you if they get in trouble.
    But, again, as the Secretary said, in many cases, what you 
end up with is a general concept that then local commanders and 
unit leaders implement with the NGOs in that area.
    Ms. Tsongas. Thank you.
    It just seems to me, given the----
    The Chairman. Thank you very much.
    Ms. Tsongas [continuing]. Whole picture, we need to really 
think about this.
    General Petraeus. I agree.
    The Chairman. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thanks to all of you who are here today for your service 
and for being here today for your service and for being here 
and participating.
    Actually, the comment that I was going to make actually 
flows, in some ways, from what Congresswoman Tsongas just said.
    First, a comment. Madam Secretary, the purview of the 
committee may, sort of strictly speaking, be military-oriented 
and making sure that we provide what our folks in uniform and 
those supporting them need.
    But at the same time, my own view of this is that for me to 
make an informed and intelligent decision with respect to that 
issue or others before this committee, especially when it comes 
to the commitment of significant numbers of forces abroad, I 
think I have to look at the big picture, and I think that is 
how I look at it, at any rate.
    So I am not myself as narrowly focused in on that sense. I 
am sure that is not what you are implying, that we should all 
necessarily just look at it from that perspective. But I think 
that is important to keep in mind.
    I have nothing but respect, obviously, for all of you here 
and I have gotten to know General Petraeus the last two years 
since I have been in office. This is my third year. And last 
time I saw him was on the tarmac in Abu Dhabi, in an airplane, 
and that was a really great meeting.
    I was on my way to Thanksgiving dinner with some of our 
troops at a forward operating base (FOB) in Afghanistan.
    The second comment. I want to echo what Mr. Marshall said 
about PRT, and I think PRT should be called PDTs, because 
especially in Afghanistan, as you acknowledged early in your 
testimony, these are not comparable situations.
    Before I became a member of Congress, I was a college 
teacher and I took students overseas a number of times, 
traveled overseas, especially to so-called third world 
countries, and there are a lot of differences between 
Afghanistan and Iraq, which I think everybody on this committee 
is aware of, especially those who have traveled those 
countries.
    But we are really talking about provincial development 
teams more than we are reconstruction, and I think everyone 
would acknowledge that.
    But let me go back to the basics, because I am not sure 
that people really get right now, with all the other things 
that are going on that are occupying our attention with respect 
to the economy.
    What is the basic goal, first and foremost, of the United 
States in Afghanistan?
    Secretary Flournoy. Sir, I think one of the things--we 
asked ourselves that question in the review and we went back to 
first principles and core interests, and the goal is to 
disrupt, dismantle and defeat Al Qaeda and its extremist allies 
in Afghanistan and in Pakistan, and everything else is derived 
from that core goal.
    Mr. Loebsack. We don't then have a goal to construct a 
democracy in Afghanistan. Is that correct? I hope you will say 
yes, but that is my own view.
    Secretary Flournoy. Again, I think that we are certainly 
supportive of all good governance efforts and so on, and I 
don't want to deprive the Afghan people of that aspiration.
    But our core goal is about denying safe haven to Al Qaeda 
in this region at this time.
    Mr. Loebsack. Is it fair to say then that we are--with 
respect to Afghanistan, at least at the moment and probably 
likely into the future, that we are not engaged in nation-
building, per se, in Afghanistan at the moment? Is that 
correct?
    Secretary Flournoy. I think that the counterinsurgency 
strategy we are pursuing involves a lot of capacity-building to 
be successful.
    I don't know what your definition of nation-building is, 
but there is certainly a big emphasis on building the capacity 
of the security forces and of basic Afghan institutions to be 
able to take the lead in protecting their own population and 
their territory.
    Mr. Loebsack. General.
    General Petraeus. Well, Congressman, to ensure, in the case 
of Afghanistan, for example, that there are not transnational 
extremist sanctuaries reestablished, you have to take certain 
actions beyond even just the strictly security arena to ensure 
that the governance is seen as legitimate by the people, that 
there is a degree of basic services and opportunity for them, 
education and expansion of health care and so forth, because at 
the end of the day, everything depends on the people supporting 
this new Afghan government and rejecting the alternative that 
is provided by the Taliban.
    Mr. Loebsack. And just very quickly, you addressed the 
interagency question, the whole of government approach, 
whatever terms you prefer, but when we SIGAR and SIGIR here 
recently, of course, there is a lot of discussion about lack of 
interagency coordination in Iraq over the years.
    And I guess I will just leave it at this, if I might just 
finish my thought, Mr. Chair.
    I won't ask you the question, but just leave you with this. 
I think it is really critical that we be thinking about sort of 
how we are going about this.
    I wasn't entirely satisfied with your answer, Madam 
Secretary, especially the role of the NSC, because I am not 
recommending that the NSC play a major role in all this, but I 
would like to talk to you more in the future, and some of you, 
about how we are doing this in Washington, D.C., in particular.
    I understand how we are doing it in the theater and in the 
region, but, in particular, here in Washington, D.C., how the 
agencies are dealing with one another, because I think we have 
to do that to have success in Afghanistan, obviously.
    Thank you.
    Thank you, Mr. Chair.
    The Chairman. Since the witnesses turn to pumpkins at 2 
o'clock and by a previous promise from the chair, we will ask 
Ms. Shea-Porter to be the cleanup batter here, and, as I had 
previously announced, in consultation with Mr. McHugh, we will 
start the next hearing from the bottom row and work backward.
    But for the votes that we had on the floor, we would have 
been able to get through everyone quite easily.
    But Ms. Shea-Porter, and that is it.
    Ms. Shea-Porter. Thank you. And I will speak Yankee fast.
    The first thing I wanted to just comment on, I am not 
expecting an answer on this, but I just wanted to put it out 
there, that we have had a lot of concerns about contractors in 
Iraq for a long time and, certainly, we saw KBR receive a 
contract recently, in spite of the electrocutions of our 
soldiers, and I hope that you are addressing those issues. I am 
trying to myself, as are others.
    But I have a deep concern. When we send our troops to a 
battlefield, they should not die in a swimming pool or in a 
shower. So I wanted to put that out there.
    General Petraeus. Task Force Safe, Congresswoman--I will 
try to speak Yankee, as a fellow New Hampshirite. Task Force 
Safe was created in Iraq in response to that.
    It has gone through tens of thousands, unfortunately, there 
are still tens of thousands of structures, but it is working 
very hard and we have shared those lessons with Afghanistan and 
other places in Central Command where we have similar types of 
infrastructure that have been built up by contractors.
    Ms. Shea-Porter. And I am grateful for the work they are 
doing, but I am still concerned that KBR received another 
contract to do electrical work.
    If you don't mind switching gears, I would like to talk 
about the Sons of Iraq. It seemed like it was doing pretty well 
and then recently I read that the Sunnis had not been 
integrated into the police force as we originally hoped and 
that there was some trouble again.
    Could you please address that, General Petraeus.
    General Petraeus. Well, Sunnis have been integrated into 
the police force. Again, the local police are generally 
reflective of local populations.
    The national police are a generally national force that 
reflects the general national structure, as is the case with 
the overall Iraqi army and other security forces.
    The issue really is the Sons of Iraq not getting long-term 
jobs and there has been, literally, over the years now, a 
commitment that the Iraqi government would do everything 
humanly possible to find them either jobs in the security 
forces, and, again, over the years, have been probably 20,000 
or more of them that have been able to do that.
    But there are still somewhere around 90,000 to 100,000 that 
don't have longer-term employment options beyond the Sons of 
Iraq.
    Now, it is important to recognize the government of Iraq 
has been paying and they have literally, month-by-month, been 
taking over more and more each province over time.
    I think they are somewhere around the 90 percent range now 
in taking over the salaries of them as Sons of Iraq, and they 
will take over the remaining provinces in the month of April.
    Ms. Shea-Porter. Thank you. I am going to interrupt, 
because we are on the clock, and say that I thought that was a 
very good program and I hope that we continue to pay attention.
    And the last question I wanted to ask you was I can 
remember several months ago reading an article about Iraqi 
widows who had to iron sheets for pennies a day and it made me 
think about what we are doing with the money when we bring it 
into Iraq.
    And are we targeting women and children enough? Are we 
putting enough money in their hands so they can do a micro 
business or change their future? Because if you want stability, 
you need stability in the family and the community.
    General Petraeus. There are programs for women that 
specifically do target women, both programs that we have and, 
also, the Ministry of Labor and Social Affairs in the 
government of Iraq.
    The tragedy is that there are vast numbers of these women 
that date all the way back to the terrible losses sustained by 
Iraqi men, primarily soldiers, in the Iran-Iraq war. And so 
this is a continued problem and then there are more in recent 
years, obviously, during the sectarian violence.
    So I don't have any doubt that there needs to be more done 
in that area or, frankly, in a number of other areas, as the 
new Iraq redevelops its social and economic institutions.
    Ms. Shea-Porter. I would be grateful if you could send 
information to me.
    And, again, thank you all for your service.
    Thank you.
    The Chairman. Thank you very much.
    The witching hour has arrived and we will end the hearing. 
But let me thank you each again for your service, for your 
testimony. You are the best we have.
    Secretary Flournoy. Thank you, Mr. Chairman.
    The Chairman. And we will see you soon.
    [Whereupon, at 2:02 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 2, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 2, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3056.001
    
    [GRAPHIC] [TIFF OMITTED] T3056.002
    
    [GRAPHIC] [TIFF OMITTED] T3056.003
    
    [GRAPHIC] [TIFF OMITTED] T3056.004
    
    [GRAPHIC] [TIFF OMITTED] T3056.005
    
    [GRAPHIC] [TIFF OMITTED] T3056.006
    
    [GRAPHIC] [TIFF OMITTED] T3056.007
    
    [GRAPHIC] [TIFF OMITTED] T3056.008
    
    [GRAPHIC] [TIFF OMITTED] T3056.009
    
    [GRAPHIC] [TIFF OMITTED] T3056.010
    
    [GRAPHIC] [TIFF OMITTED] T3056.011
    
    [GRAPHIC] [TIFF OMITTED] T3056.012
    
    [GRAPHIC] [TIFF OMITTED] T3056.013
    
    [GRAPHIC] [TIFF OMITTED] T3056.014
    
    [GRAPHIC] [TIFF OMITTED] T3056.015
    
    [GRAPHIC] [TIFF OMITTED] T3056.016
    
    [GRAPHIC] [TIFF OMITTED] T3056.017
    
    [GRAPHIC] [TIFF OMITTED] T3056.018
    
    [GRAPHIC] [TIFF OMITTED] T3056.019
    
    [GRAPHIC] [TIFF OMITTED] T3056.020
    
    [GRAPHIC] [TIFF OMITTED] T3056.021
    
    [GRAPHIC] [TIFF OMITTED] T3056.022
    
    [GRAPHIC] [TIFF OMITTED] T3056.023
    
    [GRAPHIC] [TIFF OMITTED] T3056.024
    
    [GRAPHIC] [TIFF OMITTED] T3056.025
    
    [GRAPHIC] [TIFF OMITTED] T3056.026
    
    [GRAPHIC] [TIFF OMITTED] T3056.027
    
    [GRAPHIC] [TIFF OMITTED] T3056.028
    
    [GRAPHIC] [TIFF OMITTED] T3056.029
    
    [GRAPHIC] [TIFF OMITTED] T3056.030
    
    [GRAPHIC] [TIFF OMITTED] T3056.031
    
    [GRAPHIC] [TIFF OMITTED] T3056.032
    
    [GRAPHIC] [TIFF OMITTED] T3056.033
    
    [GRAPHIC] [TIFF OMITTED] T3056.034
    
    [GRAPHIC] [TIFF OMITTED] T3056.035
    
    [GRAPHIC] [TIFF OMITTED] T3056.036
    
    [GRAPHIC] [TIFF OMITTED] T3056.037
    
    [GRAPHIC] [TIFF OMITTED] T3056.038
    
    [GRAPHIC] [TIFF OMITTED] T3056.039
    
    [GRAPHIC] [TIFF OMITTED] T3056.040
    
    [GRAPHIC] [TIFF OMITTED] T3056.041
    
    [GRAPHIC] [TIFF OMITTED] T3056.042
    
    [GRAPHIC] [TIFF OMITTED] T3056.043
    
    [GRAPHIC] [TIFF OMITTED] T3056.044
    
    [GRAPHIC] [TIFF OMITTED] T3056.045
    
    [GRAPHIC] [TIFF OMITTED] T3056.046
    
    [GRAPHIC] [TIFF OMITTED] T3056.047
    
    [GRAPHIC] [TIFF OMITTED] T3056.048
    
    [GRAPHIC] [TIFF OMITTED] T3056.049
    
    [GRAPHIC] [TIFF OMITTED] T3056.050
    
    [GRAPHIC] [TIFF OMITTED] T3056.051
    
    [GRAPHIC] [TIFF OMITTED] T3056.052
    
    [GRAPHIC] [TIFF OMITTED] T3056.053
    
    [GRAPHIC] [TIFF OMITTED] T3056.054
    
    [GRAPHIC] [TIFF OMITTED] T3056.055
    
    [GRAPHIC] [TIFF OMITTED] T3056.056
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 2, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3056.057
    
    [GRAPHIC] [TIFF OMITTED] T3056.058
    
    [GRAPHIC] [TIFF OMITTED] T3056.059
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 2, 2009

=======================================================================

      
                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I believe that looking at Pakistan and Afghanistan as 
one area of operation is a very wise decision that will help focus our 
strategic planning on the fact that what happens in one country has a 
direct effect on its neighbor. However, so much of Pakistan's strategic 
planning is based on their relationship with India. Indeed much of 
Pakistan's military is still focused on countering India, not on 
fighting the insurgency that currently rages within its borders. Even 
Ambassador Hoibrooke's authority as Special Representative for 
Afghanistan and Pakistan falls short of including India and the issue 
of Kashmir. What is being done to coordinate our Afghan/Pakistan 
strategy with India?
    Secretary Flournoy. Both India and Pakistan are key international 
partners with which the United States continues to develop long-term 
strategic partnerships. National Security Advisor General James Jones 
said while recently visiting Islamabad that that India and Pakistan 
were at a ``very, very important moment'' in their relationship, which 
was progressing in the ``right direction.'' The Department of Defense 
in particular has expressed a deep commitment to building stronger ties 
with both countries. However, the Administration respects India's 
position that it does not view Kashmir as within the scope of our 
strategy for Afghanistan and Pakistan. The Administration will continue 
to consult with all our international partners as to how to best 
address the very real and very serious challenges facing the South and 
Central Asian region today.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS

    Mrs. McMorris Rodgers. President Obama has called his request for 
more troops in Afghanistan a troop surge. In the height of Iraq, we 
were up to 22 combat brigades, at the end of this year, we should have 
about 7 combat brigades in Afghanistan. How long do you see us 
maintaining this level of troops in Afghanistan? Do we need more?
    General Petraeus, Secretary Flournoy, and Admiral Olson. Rather 
than a temporary surge in the numbers of U.S. troops in Afghanistan, 
the situation will require a sustained, substantial commitment of 
resources over a period of several years. It will take time and tough 
fighting to reverse the downward spiral in some parts of the country, 
to begin to make progress, and to build in a poor country torn by over 
thirty years of war and conflict.
    This fall, we anticipate that we will have some 68,000 U.S. troops 
deployed to Afghanistan. This troop level, however, is not fixed and 
could change depending upon the requirements on the ground of our 
strategy. The President's announcement on February 17, 2009, of troop 
increases was for forces that were required in 2009. That announcement 
was based on a request for forces by the Commander, U.S. Forces-
Afghanistan, at the time GEN David McKiernan, which included forces 
required during 2009 and forces he anticipated would be needed in 2010. 
Because any decision for the deployment of these additional forces did 
not have to be made until late 2009, it made sense to defer the 
decision on the forces requested for 2010, assess the security 
environment in Afghanistan, and gauge the effect that our additional 
forces have had before sending more.
    GEN McChrystal is now conducting an assessment of the strategy for 
Afghanistan and a ``resource-to-task'' analysis to execute the 
strategy. His assessment will be provided to me, the Chairman of the 
Joint Chiefs of Staff, and the Secretary of Defense in August.
    Mrs. McMorris Rodgers. Although President Obama has called, for 
more combat troops, he is also deploying a surge of civilian advisors. 
Would you say that our country is getting into nation-building more so 
than really focusing on combating the terrorists? If you want to 
achieve the minimalist goal of preventing a safe-haven for terrorists, 
do we have to do the maximum by nation-building?
    General Petraeus, Secretary Flournoy, and Admiral Olson. The goal 
of the administration in Afghanistan is to dismantle terrorist and 
extremist networks and prevent Afghanistan from ever again being a 
safe-haven from which terrorists can launch attacks on the United 
States and its allies. This goal requires an effective Afghan 
government that can provide for the security of its own country and 
prevent terrorist safe-havens in its territory. The goal also requires 
a relatively prosperous economy that will give the Afghan people 
alternatives to extremism and criminality. The fulfillment of these 
conditions cannot be achieved by military means alone and requires a 
significant amount of civilian expertise. It is only through the 
integration of our military efforts, our training and mentoring of the 
Afghan National Army and Police, and the civilian work of building 
governance and economic infrastructure that we will be able to achieve 
success.
    Mrs. McMorris Rodgers. We have the best military in the world. Our 
country could not be more proud of the men and women serving in 
uniform. The troops in Afghanistan have been working hard to clear 
areas to make safe for the people of Afghanistan. However, shortly 
after our troops leave the area, the terrorist invade again. I have 
heard that the troops call this ``mowing the lawn.'' With the troop 
surge President Obama is calling for, what is your plan to help prevent 
our troops from having to ``mow the lawn'' and move forward to 
expanding more safe zones?
    General Petraeus, Secretary Flournoy, and Admiral Olson. What the 
troops are referring to is the process, not uncommon in Afghanistan up 
until recently, of clearing an area of insurgents and then leaving, 
allowing those insurgents to return. The increase in U.S., Coalition, 
and Afghan forces will allow units to retain areas they clear, to hold 
on to their hard fought security gains, and then to build on them. Our 
new strategy is committed to protecting and serving the Afghan people. 
As part of the comprehensive counterinsurgency focus, we will take a 
residential approach and, in a culturally acceptable way, live among 
(or near) the people to provide a persistent security presence, 
understand their neighborhoods, and invest in relationships. The 
increase in U.S. forces will allow us to implement this strategy more 
effectively, because we will be able to expand the security presence 
further into the provinces and villages and not depart, ensuring the 
people in those areas are not susceptible to insurgent intimidation 
once again. The additional U.S. forces will also enable us to expand 
and improve our mentorship to develop the Afghan National Security 
Forces. In particular, the new forces will add significant capacity to 
under-resourced Afghan police reform programs, expediting critical 
police development and allowing U.S. military advisors to mentor more 
Afghan National Army units. It is important to note that military 
forces are necessary but, by themselves, are not sufficient to achieve 
our objectives in Afghanistan. The U.S. must have robust and 
substantial civilian capacity to effectively complement and build upon 
progress in the security line of operation by helping develop Afghan 
governance and improve basic services provided to the people.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. The Provincial Reconstruction Teams (PRTs) will be 
increased under these plans but in many places they will be working in 
areas that remain unsecured. Given the need for a low-key appearance 
which often includes no body armor and non-military vehicles, how will 
we protect more of these teams on the ground?
    Secretary Flournoy. All U.S. forces and civilian personnel, when 
deployed or stationed in a potentially hostile environment, will have 
the appropriate equipment and transportation to ensure the necessary 
level of security. General McChrystal has stated that all civilians 
sent to Afghanistan, including those deployed as members of PRTs, will 
be provided with appropriate security.
    Ms. Giffords. I understand that the people of Pakistan have a very 
low opinion of the United States. I've heard polling data from the 
Pentagon that suggests it's between 4 and 6 percent. Given our current 
approach to issues in the border region and in Pakistan and the 
continuance of ongoing operations, what is the breaking point for 
popular support in Pakistan and when will they decide that the current 
government's support of the U.S. is too high to bear?
    Secretary Flournoy. The U.S. approach to Pakistan is broad and 
long-term. A serious, long-term commitment by the U.S. will demonstrate 
to the Pakistani people that the U.S. is a committed partner countering 
the past history of ups and downs that characterized the relationship. 
This is particularly true in the military to military relationship 
where the U.S. continues to suffer from a ``lost generation'' of 
Pakistani military officers who were unable to forge ties with U.S. 
military counterparts during an 11-year period when military relations 
languished under our unilateral sanctions. The Department of Defense is 
moving forward with training, IMET, and other exchanges to rebuild a 
foundation for trust. However, Pakistani counterparts continue to cite 
a ``trust deficit'' as a key impediment to a successful relationship.
    The Administration's whole-of-government initiative is designed to 
support the democratic government of Pakistan as it addresses the needs 
of the population through a variety of means, including education, 
economic assistance, enhanced governance and political party 
development, law enforcement training, and as provided for in the 
President's strategy, a fully-resourced counterinsurgency strategy. The 
Department of Defense is only one agency involved in this effort. The 
Departments of State and Treasury, the U.S. Agency for International 
Development, and other U.S. agencies and departments are also fully 
engaged in this effort. The Department of Defense is working with the 
Department of State to develop a comprehensive strategic communications 
plan for Pakistan. While there is an urgent need to support Pakistan as 
it seeks to improve its capacity to conduct counterinsurgency 
operations to defeat Al Qaeda, the U.S. must also work to improve the 
capacity of the Government of Pakistan with a focus on education, 
agriculture, job creation, and training. The U.S. plans to foster long-
term economic stability through direct budget support, infrastructure 
investment, development assistance, and technical advice on making 
sound economic policy. DoD is committed to building ties that will be 
the basis for a relationship that gains greater support from the 
Pakistani people.
    Ms. Giffords. At Davis-Monthan AFB, our airmen train and deploy to 
provide precision Close Air Support to troops in contact. Unfortunately 
the demand for their services continues to rise. What increase in 
operational tempo can they anticipate as we surge in Afghanistan, and 
how are we planning to provide additional funding support for the aging 
A-10 aircraft they fly every day?
    Secretary Flournoy. The Office of the Secretary of Defense works 
closely with the Joint Staff and the Military Departments to determine 
our regional policy for Afghanistan. I recommend that you direct your 
question to the Secretary of the Air Force to ensure as accurate and 
informative an answer as possible.
    Ms. Giffords. At Fort Huachuca we have increased our intelligence 
training by more than 500% since 9/11. We are prepared down there to 
continue to grow but there isn't enough detail in this plan for us to 
judge one way or the other. How much additional need do you anticipate 
for intelligence assets on the ground? What increase in intelligence 
needs do you anticipate?
    Secretary Flournoy. Our Combatant Commanders determine the 
requirements for operational intelligence in their respective theaters. 
The U.S. Army Intelligence Center (USAIC) is prepared to expand, as 
necessary, to meet Army and Combatant Commander emerging requirements 
by continuing to provide demanding, relevant, and realistic 
intelligence training to ensure a full-spectrum capability. Although 
the growth at Fort Huachuca since 9/11 has been a key enabler for our 
forces, there remain areas where future growth could prove to be 
beneficial. Below are areas where we see the greatest potential payoffs 
in terms of improving our tactical intelligence capabilities.
    a. An integrated Airborne Intelligence, Surveillance, and 
Reconnaissance (ISR) training facility to train airborne ISR platform 
crews and their associated Processing, Exploitation, and Dissemination 
(PED) to operate efficiently and effectively in any environment
    b. An increase in advanced Human Intelligence (HUMINT) training 
capacity to sustain the tremendous growth of the HUMINT Training Joint 
Center of Excellence (HT-JCOE) since its inception and accommodate even 
more unfunded growth that is currently in the requirements 
determination process
    c. Expanded capabilities in the Computer Network Operations (CNO) 
domain that would provide focused intelligence training in CNO 
operations to mitigate emerging threats
    d. Continued funding of the Army Cultural Center at Fort Huachuca, 
which has trained more than 70,000 personnel since its inception in 
2006, is required to sustain this critical enabler for the Army in the 
hybrid warfare environment we face now and will face in the years to 
come
    e. Increased funding to develop high-fidelity models and 
simulations to enable the Intelligence Center to evolve intelligence 
support and force design into irregular/asymmetric warfare, which will 
result in increased efficiencies as new capabilities are fielded
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH

    Mr. Heinrich. Secretary Flournoy, you and General Petraeus 
mentioned in your testimonies the importance of the CERP Program 
(Commanders Emergency Response Program). I am a strong supporter of 
mechanisms that utilize smart power and complement our existing 
military missions abroad. What accountability measures have been 
implemented regarding CERP and how do you rate their success? How 
prevalent is the CERP program in Afghanistan and do our allies and the 
International Security Assistance Force actively engage in a similar 
program?
    General Petraeus. USCENTCOM continues to work with the Army, the 
Department's designated Executive Agent (EA) for the Commander's 
Emergency Response Program (CERP), to strengthen accountability over 
CERP, in both Iraq and Afghanistan, and to implement recommendations 
from General Accountability Office (GAO) CERP-related audits. Before 
relinquishing command of MNF-I, General Petraeus requested the Army 
Audit Agency (AAA) perform a management audit of CERP policies and 
procedures in Iraq. The resulting recommendations and lessons learned 
from that review are being applied to both theaters. The Commander, 
U.S. Forces-Afghanistan (USFOR-A) has recently requested a review by 
AAA of CERP policies in Afghanistan and the program's effectiveness 
there. The USFOR-A Commander has specified accountability, training, 
and growth as the main priorities for CERP improvement in Afghanistan.
    USCENTCOM is drafting a fragmentary order (FRAGO) directing its 
components and other subordinate commands to take ``cash off the 
battlefield'' to the greatest extent feasible. Besides requiring fewer 
assets to protect and manage cash reserves, reducing the use of U.S. 
currency in the USCENTCOM Area of Responsibility will improve 
accountability for payments made under a variety of programs including 
CERP and minimize the potential for graft. To address the need for 
improved training, USCENTCOM is working with the Army (as CERP EA) to 
provide pre-deployment training at home station (through Mobile 
Training Teams) as well as CERP training at the National Training 
Centers. In both theaters, we intend to enhance training for Project 
Purchasing Officers, Paying Agents, and Project Officers supporting 
CERP. USFOR-A is also reviewing the feasibility of a central database 
to de-conflict CERP projects with functions and activities of other 
U.S. Government agencies, non-government organizations, and foreign 
governments.
    CERP is widely used in Afghanistan; the austere conditions magnify 
the need for, and the benefits of this vital COIN program. CERP enables 
DoD to address urgent humanitarian requirements, particularly in areas 
where the security environment prevents U.S. civilian agencies from 
routinely operating, and its use well supports the objectives of our 
counterinsurgency strategy.
    The NATO International Security Assistance Force (ISAF) Post-
Operations Humanitarian Relief Fund (POHRF) provides quick humanitarian 
assistance following significant ISAF military operations. Established 
under the auspices of the ISAF Commander, POHRF receives donations from 
ISAF troop-contributing nations.

                                  <all>

</pre></body></html>
